                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                             Inspection of
                                      Embassy Port-au-Prince, Haiti
                                              Report Number ISP-I-12-24A, May 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




                              Acknowledgment

       The inspection team would like to express its deep appreciation to the
Haitian and American employees of Embassy Port-au-Prince whose daily efforts
contribute to the reconstruction of Haiti. We wish to express gratitude in particular
to the loyal Haitian employees who lost family members and friends and who
endure continued suffering from injuries and dislocation, all the while retaining
hope for Haiti’s future.




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                               Table of Contents

Acknowledgement                                        iii
Key Judgments                                           1
Context                                                 3
Executive Direction                                     5
  Policy Direction and Coordination                     5
  Internal Management                                   6
Policy and Program Implementation                       9
  Political Section                                    12
  Economic/Commercial Section                          13
  Narcotics Affairs Section                            15
  Law Enforcement Working Group                        16
  Foreign Assistance                                   16
  Public Diplomacy                                     16
  Consular Section                                     20
  Regional Security Office                             27
Resource Management                                    28
  Management                                           29
  Financial Management                                 30
  Human Resources                                      33
  General Services                                     36
  Facilities Management                                40
  Safety, Health, and Environmental Management         41
  Information Management and Information Security      41
Quality of Life                                        48
  Community Liaison Office                             48
  American Employee Association                        49
  Medical Unit                                         49
  Overseas Schools                                     50
Management Controls                                    51
  Narcotics Affairs Section Grants Management          51
  Consular Management Controls                         52
List of Recommendations                                53
List of Informal Recommendations                       57
Principal Officials                                    61
Abbreviations                                          62




                                      iv
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The embassy community suffered many losses in the devastating 2010 earthquake. The
    disaster has left an indelible imprint on embassy employees that newly assigned American
    staff will need to take into account when working with locally employed staff.

•   Two years after the earthquake, embassy operations are beginning to emerge from a
    permanent crisis response mode, but there is still much to be done to restore normal
    operations and procedures.

•   The Ambassador has provided strong policy direction and leadership to a multiagency team,
    successfully using a “whole-of-government” approach to provide earthquake emergency and
    recovery assistance to Haiti. Country team collaboration is close and effective.

•   The Ambassador coordinates frequently and productively with the senior Department of
    State (Department) officials engaged in Haiti policy to ensure that the embassy and the entire
    U.S. effort to assist Haiti are as consistent and effective as possible.

•   The Ambassador has played a major role in guiding U.S. policy and the embassy through
    Haiti’s periodic political crises and in assuring that the U.S. interest in Haiti’s democratic
    development is preserved.

•   Security at this critical crime post is an important factor in embassy staffing and operations.
    The regional security office with strong support from the Ambassador and deputy chief of
    mission (DCM) leads a well-coordinated program to manage security risks in a way that
    permits the embassy to maintain its significant level of engagement throughout Haiti.

•   In addition to its difficult post-earthquake recovery responsibilities, the management section
    has supported the surge in staff growth and coped with staffing gaps in critical positions with
    mixed results. Internal control weaknesses and lack of standard operating procedures for
    management functions expose the embassy to risk of financial loss and jeopardize property
    accountability.

•   Political and economic spot reporting is timely. Analytic cables are forward-looking and
    provide rich context, and interagency cooperation is strong in commercial promotion and
    support for U.S. businesses.

•   The embassy is making strides in integrating efforts to promote Haitian policy reforms and
    implement large assistance programs in coordination with other donors.

•   Public affairs activities are important to the overall U.S. effort in Haiti and are well-
    coordinated among the broad range of U.S. Government agencies in the country team.

•   The consular section is functioning effectively and provides outstanding assistance to
    American citizens. Fraud and high-profile interest in Haitian cases impact efficiency and
    complicate workload and staffing projections.

                                            1
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


•   Overcoming delays to complete as soon as possible the U.S. Government-owned residential
    construction projects is critical to providing employees with secure and seismically safe
    housing, and will generate savings of at least $3 million by reducing logistical support
    requirements and associated staff.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 17 and February 3, 2012, and in
Port-au-Prince, Haiti, between February 7 and 29, 2012. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
       The January 2010 earthquake that struck Haiti killed more than 200,000 people, injured
300,000, and displaced 1.5 million. It had an economic impact equal to 120 percent of Haiti’s
2009 gross domestic product, devastating the capital’s infrastructure and the ability of
government officials to fulfill basic functions.

        Haiti is about the size of Maryland; its population of 9.9 million is largely rural with 2.3
million people in the capital city of Port-au-Prince. Haiti is plagued by natural and health
disasters, extreme poverty, crime, and political instability that impede economic development
and stability. Haiti has a 52 percent adult literacy rate and the highest rate of brain drain in the
world, with 80 percent of its university-trained citizens living outside the country.

         At the 2-year anniversary of the earthquake, the Haitian Government has moved from
crisis to reconstruction and Embassy Port-au-Prince is transitioning from crisis management to
normalcy of operations. Haiti enjoys substantial support from the international community. The
United States is committed to empowering a Haitian-led effort that will lead to a stable Haiti
whose sustained democratic governance contributes to national and regional security and whose
growing economy can yield improved resilience in the wake of natural disasters.

        The United States also seeks to stanch narcotics and human trafficking. The Department
of Defense’s U.S. Southern Command engages on humanitarian services and disaster response
preparedness. U.S. disbursement of $1.3 billion in post-earthquake recovery and humanitarian
assistance is nearly complete, and the United States has expended about 40 percent of $1.8
billion in multiyear funds for reconstruction and long-term development assistance.

         Democratic governance and economic development remain fragile. The United States
and international partners exerted sustained efforts to ensure that March 2011 elections were
free, fair, and peaceful, and that the landslide victory of Michel Martelly was respected. Internal
strife precluded President Martelly, an inexperienced politician, from forming a government for
6 months until November 2011, which delayed decisionmaking on essential reforms. Donors
cannot proceed on assistance projects until ministries approve implementing details and
approvals are often slow. A change in prime ministers and the Cabinet was under way at the time
of the inspection and legislative opposition to political, economic, and judicial reforms persist.

        Haiti continues to rely for domestic stability and security on the UN Stabilization Force
in Haiti, which has been in country since April 2004. The UN force numbers 8,000 troops, 3,500
police, and 2,000 civilians from 19 UN member states, who work to develop self-sustaining
Haitian National Police capabilities. The UN Security Council extends the mandate of the UN
force annually, based on local conditions, with the next review due in October 2012. President
Martelly in 2012 established a commission to consider the restoration of a Haitian military force.

       Haiti is the poorest country in the Western Hemisphere but demonstrated strong Gross
Domestic Product growth of 5.6 percent in 2011, and projects an 8 percent growth rate in 2012.
While exports are rebounding, inflation erodes the benefits of growth for most Haitians.
Legislative rivalries stymie passage of streamlined laws and regulations that could substantially
improve the business climate and attract the domestic and foreign investment necessary to
generate hundreds of thousands of jobs.
                                                 3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



         The earthquake further damaged already inadequate infrastructure in Port-au-Prince. The
critical crime threat and poor state of infrastructure have a major impact on embassy operations,
such as the need for generator power in the chancery and staff housing. Haitian employees
continue to cope with the emotional and physical toll of the earthquake.

        Staffing for Embassy Port-au-Prince consists of 72 Department direct-hires, 64 other
agency direct-hires, and 1,373 locally employed (LE) staff members. Adjustments to staffing
levels are heavily dependent on the completion of seismically approved replacement official
housing now under construction or pending contracting action, and on the support capacities of
the security and management platform.

       Embassy Port-au-Prince was last inspected in 2007.




                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
Policy Direction and Coordination

         In the wake of the devastating January 2010 earthquake in Haiti, the United States
undertook a massive effort to provide immediate humanitarian relief to victims of the earthquake
and of the subsequent cholera outbreaks. The United States then developed a 5-year strategy to
support Haiti’s reconstruction through a Haitian-led effort in coordination with U.S. and other
donors. The U.S. objectives are to catalyze economic growth through investment in agriculture,
energy, and infrastructure and to ensure long-term stability through assistance to public
institutions, including the police, the judiciary, and other government institutions. The U.S.
strategy for Haitian reconstruction was developed under the direction of the Office of the
Secretary of State working in close coordination with the U.S. Agency for International
Development (USAID). The Ambassador, who is one of the foremost American experts on Haiti,
had significant input into the formulation of U.S. assistance strategy.

       The Ambassador oversees closely the strategy’s implementation in coordination with the
Office of the Secretary of State and the implementing agencies in Haiti, principally USAID, the
Centers for Disease Control and Prevention, and the Department’s Bureau of International
Narcotics and Law Enforcement Affairs (INL). All implementing agencies in Port-au-Prince
described the country team effort under the Ambassador’s lead as cordial and collaborative.
Because of the limited number of decisionmakers in the Haitian Government, the Ambassador
was frequently called upon, in collaboration with the Office of the Secretary and the
implementing agency, to secure needed Haitian Government approval or cooperation.

        The Ambassador provides clear guidance and leadership to all members of the country
team and the DCM speaks for the Ambassador in his absence. Country team relations are
collegial and professional and facilitate the achievement of U.S. foreign policy goals.

       On a separate, but often intersecting track with U.S. long-term strategy in Haiti, are the
frequent and often debilitating Haitian political crises. These often demand the attention of the
Ambassador to gather information, report on and, at times, act to help overcome.

        The embassy hosts a large number of high-level U.S. executive and legislative branch
visitors and manages well the complex logistical and security aspects of these visits. Reporting
of the action items from visits of key policy-level officials is generally by email to the interested
U.S. parties, which is satisfactory to keep action offices appraised. However, these concise
emails do not provide to the broader range of Haiti-watchers the useful texture of meetings with
Haitian officials.

       The Ambassador advocates frequently and effectively on behalf of U.S. economic and
business interests, in coordination with efforts being made directly in the Department and by the
Department of Commerce and other agencies.

        The Ambassador and the DCM provide clear guidance and direction on a strong political
and economic reporting program, meeting weekly with reporting officers as a group in addition
to frequent informal communication. The Ambassador also maintains a heavy flow of email and

                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

telephonic communication with the Secretary’s office and with the Haiti Special Coordinator on
policy issues, and political, economic, and assistance developments.

        The Ambassador, a fluent speaker of French and Haitian Creole, exercises active
outreach to the Haitian and international media in close coordination with the public diplomacy
section.

Internal Management

         The Ambassador and the DCM function as a team and their office management
specialists facilitate communication within and outside the embassy. The Ambassador and DCM
talk or share email frequently each day. All elements of the embassy indicated that informing
either one means that both are informed. Since his arrival in June 2011, the DCM has taken a
strong role in overseeing the internal management of the embassy and the regional security
office, while keeping the Ambassador well informed. The Ambassador and the DCM recognize
that, particularly in the aftermath of the earthquake, management services were under
exceptional strain and required more engagement by the executive office. The Ambassador and
the DCM meet regularly with the management officer and the DCM, a management cone officer,
is in frequent, daily communication with the management section to answer questions, provide
feedback and guidance, and to check on the status of pending issues.

       The Ambassador and the DCM refer frequently to the need to normalize embassy
operations from the crisis response approach that has characterized them in the period since the
earthquake. With the large staff growth of about 50 U.S. direct-hire positions to implement relief,
recovery, stabilization, and economic development assistance efforts beginning to slow down
and a succession of temporary duty management officers being replaced by full-tour officers,
conditions for progressive normalization of embassy operations and procedures are being put in
place.

Recommendation 1: Embassy Port-au-Prince should develop a strategic plan for steady
progress toward normalization of embassy operations and procedures and the executive office
should capture the expertise of the officers about to depart the embassy in that plan. (Action:
Embassy Port-au-Prince)

         The Ambassador and the DCM carefully track requests from the Department and other
agencies to establish new positions in the embassy, as required under National Security Decision
Directive 38 (NSDD-38). They are well aware of the desire by program agencies to expend
assistance funds quickly and their assertion that they can only accomplish this with increased
staff in the embassy. The Ambassador and DCM are equally aware of the limitations on staff
increases imposed by the limited availability of acceptable housing and the need to provide
management support and security for additional personnel. In consultation with the Counselor of
the Department and the Haiti Special Coordinator, the Ambassador exercises his authority as
chief of mission to ensure that any additional staff is necessary and that the positions approved
will be filled with individuals possessing the necessary language and other skills to carry out
their responsibilities. The Ambassador believes and the inspection team concurs that the embassy
is nearing the limit of its ability to absorb, support, and provide security for additional American
staff.


                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Morale

        Morale in the embassy varies widely and is negatively impacted by the difficulties of life
in Haiti and the uneven state of management support. The Ambassador invites American and
Haitian employees to his residence on a rotating basis and the DCM walks around the embassy
periodically. More frequent engagement with employees in the consular and management
sections would be beneficial. Despite the great hardships they have endured, LE staff members
expressed reasonably high levels of satisfaction with their jobs and with executive office
leadership.

Entry-Level Professionals

        The DCM has met with entry-level professionals (ELP) as a group every 2 months and he
and the Ambassador have invited them to informal dinners. The Ambassador and the DCM also
maintain an open door policy and make themselves available for informal mentoring sessions.
The embassy uses ELPs to perform functions during high-level visits outside their regular duties,
although these opportunities have not been available to all ELPs because such opportunities were
often filtered through their supervisors.

       Inspectors met with each of the ELPs individually and with the majority of the ELPs as a
group. They have not set up a formal organization, although they met as a group to discuss their
concerns prior to meeting with the inspection team. The inspection team urged them to take an
ownership stake in professional development activities at the embassy by identifying to the DCM
which opportunities would be most beneficial to them and any difficulties they face in availing
themselves of these opportunities.

       Informal Recommendation 1: Embassy Port-au-Prince should prepare, in consultation
       with entry-level professionals, a menu of career development opportunities for these
       professionals and direct all embassy sections to give all entry-level officers and
       specialists the opportunity to participate in a range of career development opportunities as
       often as possible consonant with their job responsibilities.

Protocol

        A capable LE protocol assistant conducts the standard protocol duties, which are
substantial, and often requires help from an LE economic assistant. Staff resources are not used
efficiently to manage multiple contact databases, which are prepared in different formats and not
shared among sections. In 2011, the protocol assistant had training on a Department contact
database system. Immediate tasks have diverted staff from implementing a consolidated contact
database.

       Informal Recommendation 2: Embassy Port-au-Prince should establish a consolidated
       contacts database.




                                           7
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Security

        The Ambassador and DCM provide strong support to the security program.
Communication between the regional security office and the executive office is excellent with a
steady, timely flow of information in both directions.




                                          8
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        Policy advocacy is strong and assistance implementation is integrated across sections and
agencies. The embassy uses the U.S. strategy for Haiti, the FY 2013 Mission Strategic and
Resource Plan, and a structure of four sector working groups, known as pillars, for planning and
reinforcing mutual program objectives. The 5-year strategy concentrates U.S. assistance in three
geographic corridors of Haiti to optimize impact. USAID chairs two pillars: Food and Economic
Security, and Infrastructure and Energy. The Department chairs the other two: Democracy and
Governance, and Health and Other Basic Services. Participants in each represent about 10
sections or agencies, illustrating a genuine whole-of-government approach.

        For many years including 2011, Transparency International has ranked Haiti among the
worst of over 180 countries in its global index of corruption. In 2009 and again in 2011, Haiti
ranked at the bottom of the World Bank’s Doing Business index because of poor infrastructure,
limited access to credit, and lack of respect for contracts. Haiti also has a tumultuous record of
political instability.

        The Ambassador and his team are consistent in their messaging to promote policy
reforms with Haitians and in related discussions with multilateral and bilateral partners and
donors. The team operates with alacrity. On word of a Brazilian minister’s visit to Haiti, the
embassy and the Secretary’s Acting Special Representative for Global Food Security arranged,
within days, meetings that led to trilateral cooperation on agricultural development. The trilateral
approach will serve as a model for assisting other least developed countries. In other cases,
embassy officers and other agencies’ representatives conduct coordinated dialogues with the UN
Stabilization Force in Haiti on community policing, promotion of the rule of law, and good
governance.

        The political and economic sections produce timely spot reporting and high-quality
analytic cables that Washington consumers praise. Cables are well-sourced, provide rich context,
and are forward-looking. Reporting officers distill the facts while explaining how the rumors rife
in Haiti affect the actions of leading Haitians. Officers travel throughout Haiti to meet with
diverse groups such as national and local politicians, labor activists, and communities and
individuals that are beneficiaries of U.S. assistance.

        The pace of work generates quick informal embassy email exchanges with a circle of
Department recipients, but the content is not always followed by official record traffic. These
email exchanges complicate lateral communications in the embassy. The Haiti health
reconstruction coordinator and narcotics affairs section employees do not produce official
summary reporting. More use of official reporting channels will allow information to reach many
interested official consumers. For example, with such information, U.S. embassies in the Group
of 12 countries and the U.S. Mission to the United Nations can help shape better coordination of
strategies for Haiti among donor countries. The impressive performance of the embassy can be
enhanced significantly by the introduction and maintenance of standard operating procedures for
reporting and programming officers.

       Informal Recommendation 3: Embassy Port-au-Prince should increase reporting
       through official channels on the content of meetings with senior and working-level
       Haitian officials.
                                                9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Records Management

        Emails that are not followed by formal cable reporting can be prepared as record traffic.
Officers are not using the record email function of the State Messaging and Archive Retrieval
Toolset software system. Record email is designed to archive emails that should be preserved for
the historical record, such as schedules for visitors, progress reports on programs, and exchange
of views on policy-related matters.

Recommendation 2: Embassy Port-au-Prince should implement a system for employee
compliance with guidance on using the State Messaging and Archive Retrieval Toolset software
system to archive email and other correspondence. (Action: Embassy Port-au-Prince)

         Many employees are not implementing Department procedures for managing and retiring
records, as required by 5 Foreign Affairs Manual (FAM) 433, and are not familiar with
procedures for retiring electronic records. Employees in the political, economic, and narcotics
affairs sections, and the Haiti health reconstruction coordinator, are not filing documents in
shared electronic folders. Sections are not organizing shared folders according to the
Department’s Traffic Analysis by Geography and Subject labeling system. Email messages that
meet the definition of records in 5 FAM 443.2 are not archived. Failure to implement such
procedures causes inefficiency in searching for information and impedes the Department’s ability
to retrieve official documents of value to the conduct of foreign policy and to historians.

       Informal Recommendation 4: Embassy Port-au-Prince should issue a management
       notice requiring each section to establish, maintain, and annually retire official records,
       including email messages that qualify as records, and implement a tracking system to
       verify that employees are managing and retiring electronic records.

        The inspection team found that the political section retains about 10 linear feet of paper
files dating back a decade in several safes. The narcotics affairs section does not have a coherent
filing system. Embassies are responsible under 5 Foreign Affairs Handbook (FAH)-4 H-310 for
carrying out an active records disposition program. In addition to the legal requirements for
disposition, sound administrative and security practices dictate that records eligible for
disposition be promptly retired or destroyed. These timely actions reduce the requirement for
additional filing equipment and storage within valuable office space.

       Informal Recommendation 5: Embassy Port-au-Prince should archive files that meet the
       definition of official U.S. records and should destroy nonofficial materials held in safes.

Biographic and Leadership Reporting

        Individual sections of the embassy hold biographic files for internal use. The economic
section has biographies on the embassy OpenNet Web site. That link is not readily known to
Department users. The embassy is not meeting 2 FAM 113.3 b. (1) guidelines to make readily
available biographic files on foreign nationals, official or private, who directly or indirectly
influence domestic and foreign policy.



                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 3: Embassy Port-au-Prince should enter biographic information on the
unclassified Diplopedia system and it should enter classified leadership profiles on the
Intellipedia system. (Action: Embassy Port-au-Prince)

        During Haiti’s 2011 electoral transition and formation of a new government, cable
reporting included profiles of significant Haitian politicians. Embassy staff has extensive
additional Haitian contacts. There is no sense that biographic reporting is a job for everyone who
has contacts, such as the narcotics affairs and consular sections, and not just for those in the
political section.

       Informal Recommendation 6: Embassy Port-au-Prince should include biographic
       reporting and leadership analysis responsibilities in the work requirements statements of
       all officers who do significant amounts of contact work.

Open Source Center

         The Open Source Center is the U.S. Government's provider of foreign open source
intelligence. Open Source employees prepare analyses on information about foreign political,
military, economic, and technical issues, which is available from an ever-expanding universe of
open sources.

        An LE staffer with long tenure in the embassy operates under the supervision of
managers in Panama. The Open Source Center also uses a local employee in Panama and a
network of contract employees for monitoring and translation. Political, economic, and security
officers are not using Open Source material. They are not aware of the www.Opensource.gov
Web site. Nor do they request the Open Source Center to produce analyses on targeted topics
that would reduce research by embassy officers.

       Informal Recommendation 7: Embassy Port-au-Prince should reestablish collaboration
       with regional Open Source Center managers on analyses that would benefit embassy
       officers.

Export Controls

        During the inspection, U.S. firms interested in exporting guns made inquiries about sales
to Haiti and one firm expressed concern about inaccurate information attributed to an
unidentified embassy source. There is no designated embassy officer with responsibility for
managing U.S. munitions and dual-use export controls. Correct official guidance to American
suppliers and Haitian buyers is important to mitigate the risk that munitions or sensitive dual-use
goods could be sold to transnational or domestic criminal gangs.

Recommendation 4: Embassy Port-au-Prince should designate appropriate officers to manage
munitions controls and Department of Commerce-administered dual-use export controls.
(Action: Embassy Port-au-Prince)




                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Leahy Human Rights Case Vetting

       Haiti has a long history of human rights violations and torture carried out by several
administrations. Haitian official records are poorly maintained and many were lost in the
earthquake. Many alleged violators of human rights have not been prosecuted in Haiti. As a
consequence, the embassy needs to apply scrupulously the vetting procedures of the Leahy
program to preclude U.S. assistance to persons implicated in human rights violations.
Department of State- and Department of Defense-funded training and equipment cannot be
provided to Haitian entities and individuals who do not have completed, clear vetting.

        In the past year, the embassy processed about 1,000 cases using the Department’s Leahy
database system. The volume is likely to increase to 2,000 cases annually. Anticipating the
increasing caseload, the narcotics affairs section director and the mission’s designated Leahy
coordinator are planning ahead. They traveled in late February 2012 to consult with counterparts
in Bogota on mechanisms to streamline vetting procedures.

        The narcotics affairs section director also convened a February 2012 meeting to improve
understanding about Leahy procedures. The inspection team observed that representatives of
sections affected by Leahy policy were conversant about most, but not all, aspects of vetting.
Standard operating procedures about Leahy procedures need to be disseminated widely due to
American employee turnover and because numerous representatives of other agencies on their
first overseas assignment are unfamiliar with the Leahy program.

Recommendation 5: Embassy Port-au-Prince should issue an annual management notice
explaining the scope of Leahy vetting requirements. (Action: Embassy Port-au-Prince)

        The inspection team found there was no secondary Leahy coordinator, contrary to the
suggested good management practices of the Bureau of Democracy, Human Rights and Labor
Affairs to appoint a backup coordinator so that vetting can proceed if the coordinator is
unavailable. Despite its volume of cases, the embassy does not have a secondary coordinator
who is trained on the Foreign Service Institute’s distance learning course, International Vetting
and Security Tracking system: Leahy Vetting at Post (PP-410).

       Informal Recommendation 8: Embassy Port-au-Prince should designate a secondary
       coordinator for the Leahy vetting program and arrange for the incumbent’s training and
       authorization to use the International Vetting and Security Tracking system.

Political Section

         The political section is amply staffed with six Foreign Service officers and an LE
specialist supported by a Foreign Service office management specialist. Officers use French
language skills. Several officers acquired Haitian Creole from prior assignments in Haiti or from
rotational work in the consular section. The counselor and his deputy attentively build staff
skills. Their motivated team has good morale.

       The section has a position designated as a political/economic officer. The embassy
assigned a solely political portfolio to the incumbent, who has fluent Haitian Creole and French,

                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

to help cultivate a wider range of contacts in the Haitian executive and legislative branches of
government through the May 2011 elections and during the Martelly Administration’s protracted
efforts to name a cabinet. This officer continues building contacts to glean information on local
and Senate elections in 2012. Upon departure of the incumbent, it is important to realign political
and economic staffing. The inspection team addresses realignment in the Economic/Commercial
section of this report.

Trafficking in Persons

         Haiti is a source, transit, and destination country for men, women, and children subjected
to trafficking in persons, specifically forced labor and forced prostitution. The majority of
trafficking cases involve the practice of child slavery in domestic settings. For several years, the
Department has not prepared a tier ranking of Haiti in its annual global trafficking report. The
Department’s published 2012 report will include an evaluation of Haiti, likely leading to
heightened bilateral dialogue on necessary measures to counter trafficking.

        In December 2011, the DCM directed establishment of a trafficking-in-persons working
group. The DCM delegated authority to the political counselor, in tandem with a consular
officer, to manage embassy-wide activities. The group includes narcotics affairs section
employees conducting law enforcement technical assistance and USAID staff implementing a
large project to assist and empower vulnerable women in high-risk environments, which also
includes child protection.

Economic/Commercial Section

        The economic staff is a highly productive and collegial team. A counselor supervises two
entry-level officers (ELO) and an office management specialist. One LE staff member handles
commercial work but is often redirected to protocol duties, and another has economic duties.
Officers use French language skills. The counselor is developing the economic tradecraft skills
of the ELOs.

        The U.S. Department of the Treasury provides intermittent technical assistance directly to
Haitian financial authorities and anticipates in 2012 the deployment of three resident advisors to
Haitian ministries. A resident Treasury attaché contributes to economic analysis and advocacy
for Haitian economic policy reforms. Treasury personnel regularly inform the embassy about
their activities.

        The economic section is understaffed. As noted in the political section of this report, a
political/economic officer position has been used exclusively for political work. In summer 2012,
upon departure of the incumbent in position 14-748960, the embassy would benefit from
reallocating staff resources to better manage a growing economic and commercial workload and
the increasing number of official visitors.

       Informal Recommendation 9: Embassy Port-au-Prince should assign an economic
       portfolio to the incoming officer assigned to position 14-748960.

         Frequent turnover of the three officers in the economic section hinders the section’s
ability to build and retain knowledge. The head of the economic section serves a 2-year tour.
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Two ELOs rotate yearly, requiring them to both acquire and apply economic skills within that
time.

        The section has as broad and complex an agenda as economic sections elsewhere that
have more experienced officers. The section handles the full range of economic topics:
macroeconomics, finance, telecommunication, transportation, energy, commercial issues, and
labor, environment, science, technology, and health affairs. Officers also collaborate with
counterparts in other agencies conducting development assistance.

        An extension of language training to reach proficiency caused a 5-month gap for the
economic section when the ELO slated for assignment into economic position 20-06200 was
instead assigned to another section for the entirety of his tour. The economic section needs better
predictability and reduced staffing gaps during assignment turnovers.

        A reduction by one in the number of formal rotational positions at the embassy to enable
the economic section to retain one ELO for a 2-year tour would help continuity. The change
would not affect the number of total ELOs at the embassy. A 2-year ELO tour in the economic
section is all the more important in light of the 2012 departure of an Ambassador who has a
depth of economic experience.

Recommendation 6: Embassy Port-au-Prince, in coordination with the Bureau of Human
Resources and the Bureau of Western Hemisphere Affairs, should convert one of its entry-level
officer rotational positions into a 2-year economic tour. (Action: Embassy Port-au-Prince, in
coordination with DGHR and WHA)

Labor

        The economic staff reports local conditions, promotes improvements in Haitian labor
practices, and enlists support from U.S. Department of Labor experts. The staff conducts
discussions with Haitian officials, employers, labor representatives, and nongovernmental
organizations. The United States provides technical assistance to improve labor practices in
selected factories which can then serve as models for other Haitian employers. The section
expends considerable resources to evaluate Haiti’s compliance with the conditions of U.S. trade
preference legislation.

Commercial Issues

        Following the Ambassador’s lead, his team advocates often on behalf of American
exporters of goods and services and in representing the interests of U.S. investors in Haiti. The
embassy broadly advertises the USAID Forward initiative to streamline the procurement of U.S.
assistance and to promote contracting opportunities for both American and Haitian firms.

       The embassy provides objective, balanced guidance to the American business community
about pitfalls in Haiti’s business climate and opportunities in the Haitian market so that
American businesses can take informed risks. It works closely with agencies such as the
Overseas Private Investment Corporation and U.S. Trade Representative. The embassy is a
Foreign Commercial Service Partner Post since October 2011. Guidance is consistently and
widely disseminated in the Country Commercial Guide, the Investment Climate Statement, and
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

other public sources such as www.export.gov and www.grants.gov. The public diplomacy
section disseminates such information on the embassy’s Web site and Twitter account.

        Embassy employees, including from USAID, partner closely with the American Chamber
of Commerce in Haiti. In February 2012, the embassy enlisted the chamber, the regional Foreign
Commercial Service attaché based in Santo Domingo, and the Foreign Commercial Service
office in Miami to conduct a webinar with 55 fee-paying Americans eager to learn how to do
business in Haiti.

Environment, Science, Health, and Technology Affairs

       The economic section handles environment, science, health, and technology affairs and
prepares reporting and analyses on local conditions and on commercial opportunities for
American firms in fields such as waste management. Reporting encompasses aspects of
environmental, health, and agricultural development programs.

         Extensive U.S. assistance in the health sector predates the 2010 earthquake and is
conducted by the Centers for Disease Control and Prevention and USAID. To help manage the
large interagency health programs, the Department funded a new position for a Haiti health
reconstruction coordinator who reports to the Ambassador. The incumbent is new to U.S.
Government and Department procedures, conducts most communication by email to a small
circle, and keeps materials on the local workstation drive not accessible to others.

       Informal Recommendation 10: Embassy Port-au-Prince should maintain its health
       sector files in shared electronic folders accessible to the economic section and organized
       in accordance with the Traffic Analysis by Geography and Subject labeling system, and
       include health files in economic section archiving.

       Informal Recommendation 11: Embassy Port-au-Prince should arrange for the Haiti
       health reconstruction coordinator and economic officers to jointly prepare periodic cables
       on health topics for broader dissemination to U.S. official consumers.

Narcotics Affairs Section

        The narcotics affairs director of the section leads a staff, which includes an experienced
management officer, three experienced advisors on policing, an American LE staff member with
a security clearance who serves as Leahy coordinator, an ELO, and seven LE staff members.
Employees have extensive contacts with Haitian officials and nongovernmental organizations of
value to the entire embassy, particularly to the regional security office. Programs focus on
countering narcotics trafficking, in close cooperation with the Drug Enforcement Administration,
and capacity-building of the Haitian National Police including recruitment of women and the
promotion of police respect for human rights.

        The narcotics affairs section relies appropriately on administrative and logistical support
from INL to meet the challenge of delivering over $186 million in technical assistance.
Insufficient staffing in INL and in the narcotic affairs section has hampered preparation and
completion of contracts and other project documentation. Section performance also is stymied, as
are most programs, by limits in the capacity of Haitian counterparts to agree to specific project
                                          15
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

terms and to absorb aid. A recommendation on improving accountability on grants and contracts
appears in the Management Controls section of this report. In addition, the director and his
deputy are consulting with INL in Washington on possible consolidation of procurement
functions to facilitate implementation of projects in Haiti.

Law Enforcement Working Group

        The regional security officer, with DCM oversight, exercises lead responsibility for law
enforcement activities involving resident and nonresident law enforcement entities. In September
2011, the regional security officer formalized a law enforcement working group, which the DCM
chairs every 2 weeks. The regional security officer maintains and distributes minutes of
meetings. The inspection team observed robust collaboration and appropriate information
exchange among embassy sections and agencies. Law enforcement entities regularly consult on
policy, technical assistance, and operational matters.

Foreign Assistance

        The Ambassador has comprehensive knowledge of the diversified assistance programs
and intervenes to improve programming effectiveness and accountability of funds.

       Building on U.S. assistance established in Haiti before the January 2010 earthquake, the
U.S. Government committed $3.1 billion toward relief, recovery, and reconstruction. Of this
amount, $1.3 billion has been obligated for rapid, lifesaving emergency assistance, including
funding to fight cholera outbreaks. The balance of $1.8 billion supports long-term development.
Unusually, a significant amount of U.S. assistance is used for construction and reconstruction of
buildings that meet seismic standards, a process that requires a long timeline for design and
completion.

       The health sector is among the largest programs, with a cumulative allocation of $943
million in funding from the FY 2010 supplemental budget appropriation through FY 2014
budget projections. Of that total, the FYs 2010 and 2011 appropriations amount to $477.8
million.

        The Centers for Disease Control and Prevention, USAID, and the Office of the U.S.
Global AIDS Coordinator are moving toward better collaboration in the delivery of health
assistance. The Haiti health reconstruction coordinator, reporting to the Ambassador and
Department and USAID officials, figures significantly in keeping cooperation on track.

        Because of constraints in housing full-time personnel, the embassy has used temporary
duty staff to handle the functions of U.S. President's Emergency Plan for AIDS Relief
(PEPFAR). At the time of the inspection, the embassy was preparing the scope of work for the
recruitment of a full-time PEPFAR coordinator.

Public Diplomacy

        A small section, relatively understaffed and inexperienced, conducts a growing range of
outreach programs that often involve the Ambassador who is attentive to public diplomacy and
particularly adept at reaching Haitian audiences in fluent French and Haitian Creole. Only two of
                                         16
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

the three authorized officer positions in the public diplomacy section have been filled during
much of 2010˗ 2011. A new public affairs officer and an experienced information officer are
scheduled to arrive in summer 2012. The section’s budget is one of the largest in WHA, taking
into consideration programming opportunities and programs offered by the Bureaus of
Educational and Cultural Affairs and International Information Programs. With only 12 LE staff
members, the section is among the smallest in WHA, which has negatively affected its ability to
expand and monitor activities on a regular basis. The embassy has funds to hire two additional
LE staff members for the public diplomacy section and has begun the hiring process for one staff
member.

        The first-time public affairs officer concurrently serves as information officer. He spends
the majority of his time on press activities involving frequent high-level visitors from the United
States and visiting foreign and U.S. press covering relief efforts and reconstruction following the
2010 earthquake. The public diplomacy section’s engagement with the Haitian media has also
concentrated on explaining U.S. relief efforts and accomplishments. The public affairs officer
works closely with the embassy’s executive office to ensure policy coherence and coordinates all
public affairs activities for a large USAID mission, the Department of Defense, and various other
U.S. Government agencies resident in or visiting Haiti. All stakeholders recognize that the
section’s press activities are critical to the overall U.S. effort in Haiti. Interagency press
coordination is excellent.

         Unfortunately, the quantity of press and public affairs work that dominates the efforts of
the public diplomacy section has left little time for strategic planning for public diplomacy for
the year ahead. Although the public diplomacy goal within the FY 2013 Mission Strategic and
Resource Plan is adequate, public diplomacy themes and goals are not embedded within the
other five goals. The section has also not conducted audience analysis to determine where to
target its efforts. The public affairs officer is aware of these planning shortcomings and has
begun to sketch out preliminary thoughts in preparation for the 2014 Mission Resource Request. 1

        Informal Recommendation 12: Embassy Port-au-Prince should prepare a written
        strategic analysis of the public diplomacy themes important to the Haitian-American
        dialogue and the key Haitian audiences who should be engaged in that dialogue.

Exchange Programs

        The cultural affairs officer manages a large cultural and exchange program budget of
$3.45 million in Bureau of Educational and Cultural Affairs supported activities, including 25
International Visitor Leadership Program grants, a Fulbright and Humphrey program, and
reinvigorated cultural and speaker programs. Much of this activity had been stalled or postponed
for many months after the earthquake. The cultural affairs officer does not manage the
Information Resource Center or the American Corner. Nor does she manage relations with the
Haitian American Institute.



1
  In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The Mission Resource Request (3-year strategic plans, with shorter annual resource requests)
replaces the Mission Strategic and Resource Plan beginning with the FY 2014 budget cycle.

                                              17
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The International Visitor Leadership Program, which includes minority grants, is closely
tied to the embassy’s FY 2013 Mission Strategic and Resource Plan goals and objectives. The
DCM will chair the committee to select international visitor grantees later in 2012, and all
mission sections and agencies play an active role in nominating candidates and participating in
the selection process. All candidates are vetted for human rights abuses. Judicious use and timing
of grantee travel have enabled the embassy to receive several additional no-cost grants in each of
the past 2 years. The section is in the process of hiring an LE staff alumni coordinator who will
help maintain closer contacts with former grantees from the International Visitor Leadership
Program and other embassy grants programs.

        Haiti does not have a Fulbright Commission. Instead, the cultural affairs officer manages
Fulbright grants whose current recipients are Haitian senior scholars and graduate students.
Plans to reinstate American scholar and graduate student programs are on hold because of
security concerns in Haiti. An inaugural Fulbright Public Policy Fellow program to bring
specialists to advise Haitian Government ministries is under consideration for FY 2013.

         The public diplomacy section has also carried out a number of successful cultural
programs targeting youth audiences, including a multicity jazz festival and an American speakers
program that uses embassy officers to engage student groups on various topics about American
life, society, and literature.

Grants

        An administrative assistant, who has completed the requisite grants training, maintains
the public diplomacy grants files. The public affairs officer and the cultural affairs officer hold
current grants authority and have taken grants training. In FY 2011, Embassy Port-au-Prince
issued 56 grants totaling $511,220.

        Most of the required grants documentation is present or in the process of being completed
for FYs 2010 and 2011. One major shortcoming is the absence of required final reports from
grantees and written accounting of how grantees spent the funds. For FY 2010, 50 percent of the
grants lack this documentation; for FY 2011, 30 percent of the grants lack documentation.
Occasionally grants were given to grantees in FY 2011 who had not completed reports for grants
awarded in previous years.

        In one particularly notable grants case, $667,000 in two FY 2010 grants was fully
disbursed to the Haitian American Institute to clear rubble from the earthquake and to rebuild its
buildings. To date, despite frequent requests in writing from both the present and previous public
affairs officers, only $111,000 of the money has been accounted for with written receipts and the
institute has not submitted a final report.

Recommendation 7: Embassy Port-au-Prince should request missing reports and
documentation from delinquent FYs 2010 and 2011 grantees. No further grants to those entities
should be approved until delinquent reports are received. (Action: Embassy Port-au-Prince)




                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Information Resource Center

        The embassy’s Information Resource Center is located just inside the entrance of the
embassy and is under the overall direction of the public affairs officer. Although open to the
public, it is difficult for Haitians to access and receives on average only about a dozen visitors
each month. It houses a small reference library, some meeting and video conferencing
capabilities, and exhibit and book storage. The staff includes a director, who is a trained English
teacher, and an assistant. Neither staff member has research librarian experience or training. The
center does little research or document gathering for embassy staff, concentrating instead on
limited outreach to libraries, schools, and other educational organizations primarily in Port-au-
Prince. Its most popular offerings are French language book donations supplied by the U.S. book
translation program at Embassy Paris, paper shows loaned or given to local schools, and a
monthly book discussion held at various institutions around Port-au-Prince.

        The center director has worked closely with U.S. embassies in Santo Domingo and Paris
to obtain materials for future programs and to develop center management expertise. Given the
difficulty of attracting an audience to use the center inside the embassy and the general lack of
program space available in the cramped center, the center director is actively exploring further
programming in outside venues in Port-au-Prince and the provinces.

       Informal Recommendation 13: Embassy Port-au-Prince should close access to the
       public of the Information Resource Center except by appointment and concentrate its
       efforts on external outreach.

        The center does not use standard program tools such as article alert, electronic journals,
or online data searches for the embassy staff or for external Haitian audiences, partly because
there is no trained research librarian on the staff. The Washington-based regional information
resource officer has not visited the center in more than 18 months.

       Informal Recommendation 14: Embassy Port-au-Prince should reconfigure current
       staffing to include a trained research librarian.

         The center director also coordinates the activities of the Port-au-Prince American Corner,
located in the library of a prominent political development-oriented nongovernmental
organization, the Fondasyon Konesans ak Libete (FOKAL). The Corner offers a small
circulating collection of books and periodicals, two Internet connections, and a wide range of
programs including seminars and speakers. Library and FOKAL senior personnel (including one
Harvard-trained, former Haitian Prime Minister) are extremely supportive of the Corner and
would like to see its operations expanded. The FOKAL director has offered the services of 22
affiliated libraries around Haiti as American Corner programming venues.

       Informal Recommendation 15: Embassy Port-au-Prince should maximize programming
       opportunities at the American Corner and work closely with the Fondasyon Konesans ak
       Libete to leverage its platforms outside Port-au-Prince.



                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The Information Resource Center has done some work with English teaching programs
including the Haitian American Institute, perhaps the largest English teaching institution in Haiti.
A recent visit by a regional English language officer highlighted opportunities that the public
diplomacy section could exploit in this area. The Information Resource Center has the expertise
to take the lead on these kinds of programs.

         The public diplomacy section handles the embassy’s growing social media applications,
which are managed by a recently hired part-time American LE staff member under the general
supervision of the public affairs officer. In a country where only an estimated 200,000 people
have regular access to the Internet and perhaps twice that number have intermittent Internet
connection, the level of the embassy’s use of social media products like Facebook, Twitter, and
YouTube is appropriate. The public diplomacy section also manages the embassy bilingual Web
site. Since April 2011 when the new LE staff member took over, embassy social media usage by
Haitian audiences has increased by almost 50 percent. Trends indicate that across the board, both
youth audiences and public opinion multipliers among the Haitian elites are turning to the
Internet as a source of information and a means of persuasion, making social media a potential
vehicle for greater embassy exploitation.

Consular Section

       The consular section is a productive operation that provides a full range of services with
5 managers, 12 ELOs, 49 LE staff members, and 2 American family members. The staff is
knowledgeable, professional, and well trained, and the section coordinates effectively with other
sections and agencies in the mission to address operational and policy issues.

        All consular officers speak French, but not all received training in Haitian Creole, which
is essential for visa interviews. The inspection team addresses this issue in the Resource
Management section of this report.

        The section was identified by the Bureau of Consular Affairs in early 2010 to gain three
officer positions; however, the NSDD-38 process slowed approval for two of the positions.
Workload projections for 2013 and beyond suggest those positions will be needed to meet
demand within the Bureau of Consular Affairs criteria for applicant wait times. The embassy’s
decision on whether to grant NSDD-38 approval will depend in part on its ability to provide
housing, security, and administrative support for the new positions.

Consular Management

        The consular section is led by an experienced senior officer who has focused on
normalizing operations and achieving greater consistency in work processes and products; she
has largely succeeded in achieving this goal. (b) (5)



                        The consul general closely monitors work on special projects, training,
and out-of-section opportunities(b) (5)
                            The inspection team believes that a more systematic structure to
orienting incoming officers, assigning portfolios, offering special project opportunities, and
                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

rewarding outstanding work through the awards program would enhance professional
development and office morale.

       Informal Recommendation 16: Embassy Port-au-Prince should create and implement a
       written orientation and training program for consular entry-level officers.

       Within the section, the organization chart, performance rating assignments, and work
requirements do not reflect the actual supervisory relationships. This lack of clarity causes
confusion about who has authority to make decisions. The inspection team counseled consular
managers on the benefit of delegating clear responsibility and authority and of performing
supervisory oversight to hold staff accountable.

       Informal Recommendation 17: Embassy Port-au-Prince should amend its consular
       performance rating assignments, work requirements, and consular section organization
       chart to clarify and delineate appropriate management relationships, responsibilities, and
       authorities.

         The section is facing a large turnover in summer 2012, with the consul general, deputy
consul general, and 8 of 12 ELOs rotating out. The consul general’s initiative to develop a series
of written standard operating procedures is an excellent tool to ensure continuity of operations
for this upcoming transition. However, these are not yet accessible on every consular employee’s
computer.

       Informal Recommendation 18: Embassy Port-au-Prince should use the intranet to
       facilitate internal communication in the consular section, including dissemination of
       standard operating procedures.

Consular Appointment System and Entry Procedures

        Consular visitors begin lining up in the pre-dawn hours because too many appointments
are made for early morning hours; thus the appointment system does not work effectively to
create an even flow of applicants. The result is that hundreds of people stand for several hours,
unprotected from the elements with insufficient seating and limited access to toilets and water.
The Consular Management Handbook (7 Foreign Affairs Handbook (FAH)-1 H-263.3)
establishes guidelines for workflow management including making adjustments to the
appointment system. A more effective appointment system would reduce the waiting period
outside and improve the embassy’s public image.

Recommendation 8: Embassy Port-au-Prince should modify its appointment system to
effectively control the flow of applicants for consular services. (Action: Embassy Port-au-Prince)

       Informal Recommendation 19: Embassy Port-au-Prince should implement a plan to use
       media outlets, the embassy Web site, and signs to inform the public of the changes to the
       appointment system.

       The heavily trafficked area in front of the consular entrance floods during the rainy
season, creating dangerous and unsightly conditions. The drainage is inadequate to deal with
heavy downpours; in addition, the slope directs the water toward the consular entrance. A
                                          21
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

makeshift solution involves placing wooden pallets over the muddy sidewalk areas, creating a
safety hazard. A drainage system designed for the climate would limit the flooding and
accumulation of mud.

Recommendation 9: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Port-au-Prince, should repair the inadequate drainage conditions outside the consular
entrance. (Action: OBO, in coordination with Embassy Port-au-Prince)

         A functional appointment system will alleviate some of the crowding, but applicants will
still need to stand in uncovered areas for processing through security points. Elderly and disabled
applicants are not afforded sufficient seating options. The Consular Management Handbook (7
FAH-1 H-281) addresses appropriate space management considerations, beginning with
applicants entering the embassy area. Additional seating and a permanent awning to provide
protection from the elements for waiting applicants are customer service requirements.

Recommendation 10: Embassy Port-au-Prince, in coordination with the Bureau of Overseas
Buildings Operations, should construct awnings and place benches in the exterior waiting areas
and courtyard to provide protection from the elements for consular clientele waiting for
admission to the interior waiting areas. (Action: Embassy Port-au-Prince, in coordination with
OBO)

        The embassy’s security policy prohibits consular visitors from bringing electronic
equipment, such as cellular telephones and laptop computers, into the chancery. Currently,
visitors surrender their electronic equipment outside the consular compound access control
entrance. A vendor hired by the embassy association collects fees for securing these items. (b)
(b) (5)                                                                                      (5)




Recommendation 11: Embassy Port-au-Prince should immediately cease having a vendor
collect a fee for storing electronic equipment outside the consular public entrance and make the
regional security office responsible for this security function. (Action: Embassy Port-au-Prince)

          Informal Recommendation 20: Embassy Port-au-Prince should use its Web page,
          signage, and other public information outlets to inform the public which items are not
          permitted in the consular waiting areas.

       An insufficient number of poorly placed signs and a few stanchions inadequately
organize pedestrian traffic flow. The arrows on the single multidirectional sign point in the
wrong directions. Guards direct people effectively, but the signs are confusing and incomplete.
The Consular Management Handbook (7 FAH-1 H-263.6) establishes guidance for consular
signage.

          Informal Recommendation 21: Embassy Port-au-Prince should place appropriate signs
          to direct the public through the consular entry and waiting areas.

      An automated queuing system is installed in all waiting room areas but is only used in the
American citizens services area. The nonimmigrant visa unit uses an effective system that serves
                                            22
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

applicants in the order they arrive. However, the automated queuing system could be used
effectively in the immigrant visa waiting areas to direct applicants to interview windows. The
Consular Management Handbook (7 FAH-1 H 263.7) establishes the value of a queuing system.

       Informal Recommendation 22: Embassy Port-au-Prince should use the automated
       queuing system for managing the applicant flow in the immigrant visa unit.

American Citizens Services

        The American citizens services unit handles routine and complex special consular
services cases well. The unit serves an estimated 22,750 American citizen residents, consisting
largely of Haitian-Americans, missionaries, and development workers, and to an estimated 1,000
to 6,500 visitors in country at any one time. A travel warning, which was being updated during
the inspection, describes Haiti as a country affected by violent crime and poor infrastructure; the
unit’s services for victims of violent and serious crime are especially commendable.

        The American citizens services unit maintains the consular portion of the duty book and
provides training to duty officers. The duty program, which involves U.S. direct-hires from all
agencies, is a vital embassy-wide crisis response training tool for a possible hurricane or
earthquake. The American citizens services unit works as part of the embassy emergency action
team and has requested essential items for an emergency fly-away kit in the event of a crisis or
natural disaster. Some of those items remain pending with the procurement unit in the
management section after months.

       Informal Recommendation 23: Embassy Port-au-Prince should procure the items
       needed for the American citizens services emergency fly-away kit.

       The unit’s LE staff is excellent and the unit has a good network of contacts. Maintaining
and developing new contacts throughout the country is essential in providing emergency services
to Americans. Funds are not always available when needed for travel or for developing and
maintaining contacts throughout the country. The inspection team counseled consular
management on the value of submitting an annual representational and travel plan to ensure
contact with essential personnel who provide assistance for Americans in emergency situations.

       Informal Recommendation 24: Embassy Port-au-Prince should implement a plan to
       provide adequate representational and travel funds for the consular section.

        In 2011, the consular section handled 24 new arrest cases and had five Americans in
prison. Prison conditions are poor and judicial processes slow. The American citizens services
unit initiated action to propose a Prisoner Transfer Treaty, which would open the option for U.S.
citizens convicted of crimes in Haiti to apply for a transfer to a U.S. prison. Embassy Port-au-
Prince sent an action request to the Department in October 2011 but the response is still pending.

Recommendation 12: The Bureau of Consular Affairs, in coordination with the Office of the
Legal Adviser, should act on Embassy Port-au-Prince’s proposal for a prisoner transfer treaty.
(Action: CA, in coordination with L)



                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Haiti has signed the Hague Adoption Convention but is still far from complying with all
the provisions of the convention, and the consular section is tracking Haitian compliance and
assisting as needed. In 2011, the unit managed 6 cases involving 13 abducted children; and from
January to mid-February 2012, there were 8 new child abduction cases. Given the increasing
number of child abduction cases, the unit initiated action, and in December 2011 the Department
approved, a diplomatic note regarding Accession to the Hague Convention on the Civil Aspects
of International Parental Child Abduction. The inspection team applauds the foresight of the
consular section and this proactive approach even though compliance with the provisions of the
conventions may not occur rapidly.

        The embassy is aware of the “No Double Standard” policy in 7 FAM 052, which requires
the Department to make security information available to both the official and nonofficial
American communities. However, at times there has been confusion about the appropriate roles
of the consular section and the regional security office for addressing law enforcement matters
that emerge in the course of consular casework. Both the consul general and regional security
officer are mindful of this confusion.

       Informal Recommendation 25: Embassy Port-au-Prince should delineate responsibilities
       and establish standard operating procedures for consular section and regional security
       office cooperation in cases involving American citizens and law enforcement issues.

Nonimmigrant Visas

       The nonimmigrant visa unit dealt with a workload of close to 55,000 cases in FY 2011.
The unit functions efficiently under the capable direction of a mid-level manager, with solid
ELOs and excellent LE staff.

        The visa appointment backlog extended more than 30 days for approximately half of
2011. Unreliable civil records and unreported deaths following the earthquake make
documentary and imposter fraud a daily challenge. A large UN peacekeeping presence and
international nongovernmental organizations composed of many third country nationals
contribute to a diverse applicant pool. Congressional interest and other inquiries create a large
correspondence workload.

       On January 15, 2010, Haitians in the United States were declared eligible for Temporary
Protected Status; the status was redesignated on May 19, 2011, and expanded to include Haitians
continuously present in the United States since January 12, 2011. The U.S. Department of
Homeland Security informed the inspectors that approximately 53,000 Haitians had applied for
extension of Temporary Protected Status and that they had received an additional 18,000 new
applications with the May 2011 extension. Many Haitians have family ties to the United States
through those in Temporary Protected Status, dual national Haitian-Americans, or legal
permanent resident relatives. Many applicants present unreliable documents making
nonimmigrant intent difficult to adjudicate.

         In January 2012, The Department of Homeland Security added Haiti to the list of
countries whose nationals are eligible for temporary worker status in the United States. In 2009,
Haiti was among the top five countries in the world for temporary worker visas; however,
eligibility was withdrawn in 2010. The reinstatement of eligibility for temporary worker visas
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

     could add significantly to workload, and the nonimmigrant visa unit is preparing for that
     eventuality.


     Visa Referral Program

             The nonimmigrant visa unit provides monthly training on the worldwide referral
     guidelines and provides potential referrers with a handout of the 9 FAM Appendix K
     requirements. An out-of-date published management notice posted on the embassy intranet Web
     site was updated before the end of the inspection. The inspection team suggested that periodic
     briefings for country team members would help ensure compliance with the referral policy.

     Immigrant Visas

             The immigrant visa unit operates smoothly under the leadership of the deputy consul
     general. Experienced LE staff support the unit. Many unreliable documents and the
     misrepresentation of qualifying relationships complicate adjudications, and congressional and
     other high-level interest creates a large correspondence workload. The unit has a cordial working
     relationship with the adjacent U.S. Citizenship and Immigration Services office of the
     Department of Homeland Security.

             In 2010, the National Visa Center received more than 100,000 petitions for Haitians to
     immigrate to the United States, twice the number of the previous year. This increase will begin to
     affect immigrant visa demand in Port-au-Prince as priority dates become current.
(b)(5)(b)(6)




             The unit chief oversees operations professionally and is available to answer questions by
     officers and LE staff; however, he rarely holds unit-wide meetings, believing that the close-knit
     unit makes them unnecessary. However, the staff expressed concerns that information is not
     consistently shared. The inspection team counseled the immigrant visa chief on the value of
     holding regular immigrant visa unit meetings to enhance professional development and to
     promote continuity in processing and consistency in adjudications.

             Adoptions of Haitian orphans by U.S. citizens present a high-profile and heavy caseload.
     Over 1,000 orphans were admitted to the United States under Section 212(d)(5)(A) of the
     Immigration and Nationality Act for humanitarian reasons following the earthquake, virtually
     eliminating the waiting list for orphan adjudications and related immigrant visa appointments.
     The workload is gradually building again, and new Haitian adoption regulations are being
     proposed and implemented to comply with the requirements of the Hague Adoption Convention.
     These changes make adopting in Haiti a confusing process. A new American position has been
     established to handle this workload, and the first incumbent is due to arrive in June 2012.


                                              25
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Fraud Prevention Unit

         The fraud prevention unit is led by a mid-level officer and has six LE staff investigators.
They primarily investigate document and relationship fraud relating to immigrant visas,
passports, and reports of birth. Poor document production and verification creates a vulnerability
to the integrity of all documentary evidence. The fraud prevention unit performs investigations
for all consular subunits. A new ARSO-I position is a positive augmentation to the consular
section’s ability to prevent and detect fraud.

        The unit has focused on casework, to the neglect of validation studies and trend reporting.
Better distribution of work among LE staff with more clearly defined portfolios would also
enhance the efficiency of the unit.

       Informal Recommendation 26: Embassy Port-au-Prince should conduct regular briefing
       sessions for consular officers on country-specific and worldwide fraud trends.

       Informal Recommendation 27: Embassy Port-au-Prince should establish accurate work
       requirements reflecting the portfolios of the locally employed staff in the fraud
       prevention unit.

Assistant Regional Security Officer-Investigations

         The ARSO-I function is new to the embassy; an ARSO-I arrived in December 2011. A
Foreign Service national investigator position has been established, but the position had not been
filled at the time of the inspection. Despite 18 months advance notice of the ARSO-I’s arrival,
the embassy had not reconfigured appropriate office space within the consular section. As a
consequence of having no assigned private office space, the ARSO-I was working a flexible
schedule in order to make sensitive investigative telephone calls without being overheard.

Recommendation 13: Embassy Port-au-Prince, in coordination with the Bureau of Overseas
Buildings Operations, should construct office space within the consular section that meets
standard requirements for the assistant regional security officer-investigations and staff. (Action:
Embassy Port-au-Prince, in coordination with OBO)

        ARSO-I work requirements were established during the inspection, with the regional
security officer as the rating officer and the consul general as the reviewing officer. The ARSO-I
had begun to establish relationships with consular staff and had proposed standard operating
procedures to consular managers. During the inspection, she provided a briefing to consular
officers to acquaint them with the resources now available to them through the ARSO-I function.
Robust communication and ongoing training will enhance the value that the ARSO-I program
brings to the embassy’s consular antifraud work.

       Informal Recommendation 28: Embassy Port-au-Prince should conduct regular
       briefings for consular staff on the assistant regional security officer-investigations
       function and program.




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Visas Viper Program

       Embassy Port-au-Prince held all required Visas Viper meetings and the consular section
submitted all required reports on time. During the past year, there were regular reports of
monthly meetings, but no names were submitted.

Correspondence and Congressional Interest Unit

        The correspondence unit handles written, phone, and email inquiries. Four LE staff
members respond to routine inquiries regarding appointments or documentary requirements
using templates; one ELO rotates part-time to the correspondence unit to draft more complex
responses. On average, the unit responds to 250 email inquiries daily using templates; 10-15
inquiries every week require officer input. The unit also responds to 200 to 300 phone calls and
up to 15 congressional inquiries daily. The unit manages the section’s content on the Internet and
intranet sites and prepares materials for consular outreach and off-site service visits. The
inspection team explained the advantages of making greater use of the intranet Web site.

Regional Security Office

        Security risk management is extremely important at this critical crime post and the
regional security office leads a robust and well-coordinated program to manage security risks
properly. An extensive discussion of this subject can be found in the classified annex to this
report.




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED


Resource Management
                                    U.S.      Personal     Eligible            Foreign
                                   direct-    services      family    LE       Service               FY11
          Agency                    hires    contractors   members    staff   nationals   Total     Funding
Department of State
Program                                48             3           0       2         51     104       $3,968,400
MRV                                     0             0           5       1         15      21         $851,635
ICASS                                   9             0           4       7        350     370      $16,540,293
Public Diplomacy                        2             0           0       2          7      11       $1,182,579
Diplomatic Security                     5             0           0       2        617     624       $8,341,278
Marine Security                         7             0           0       0          3      10         $100,030
Narcotics Affairs Section 2                                                                         $19.420,000
OBO                                     1             0           0       0           0      1      $23,603,152
ORA                                     3             0           0       0           1      4       $5,403,323
OSC                                     0             0           0       0           1      1         $151,557
Department of
Agriculture
APHIS                                   0             0           0       0         12      12       $1,092,954
Department of Defense
Defense Attaché Office                  4             0           0       0           1      5         $341,425
HIS                                     0             0           0       0           2      2         $862,000
MLO                                     5             0           0       0           4      9         $210,000
Department of Justice
DEA                                     5             0           0       1           0      6         $563,098
Department of Homeland
Security
CIS                                     2             0           0       0           4      6         $418,862
Coast Guard                             1             0           0       0           0      1         $290,780
Treasury                                1             0           0       0           0      1         $690,000
Department of Health &
Human Services
CDC/PEPFAR & GDD                        6             0           0       0          1       7              NA
CDC/PEPFAR                              1             0           1       0         44      46      $77,797,419
CDC/GDD                                 1             0           0       0         23      24      $61,891,750
USAID
USAID                                  35            17           0     12         110     174     $810,281,198

TOTAL                                136             20         10      27       1246     1439    $1,014,581,733




2
    Narcotics affairs staffing included in program
                                                  28
                                      SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management

        The management section has made progress in providing services since the 2010
earthquake that devastated Haiti’s already frail and largely nonfunctioning infrastructure. Many
aspects of the operation, however, continue to run in crisis mode. Frequent high-level visits that
require logistical support, the surge of staffing added to the embassy staff, and reestablishing safe
and secure housing add to the immediate workload. Until recently, staffing gaps in critical
management positions and interpersonal tensions impeded effective collaboration. With the
assignment of permanent staff to replace a succession of temporary duty officers, the embassy
can build a cohesive and stabilized management team for this critical transitional phase. The
housing inventory has almost reached parity with the embassy’s staffing and, despite continuing
delays, government-owned housing projects hold great promise to save money and resolve
broader operational and quality of life challenges.

       The section is handling the day-to-day workload and making incremental progress on
many fronts, but the inspection team identified numerous areas for improvement. OIG
questionnaire results indicated low levels of customer satisfaction with scores below prior post
averages in 31 of 32 core management areas measured by the survey.

        As the section deals with the immediately urgent issues, other important management
functions struggle for attention. The inspection team found internal control lapses in high-risk
areas, such as the embassy’s $4.4 million bulk fuel program, information technology property
accountability, and the excessive use of cash transactions. It also found basic International
Cooperative Administrative Support Services (ICASS) management requirements unfulfilled and
redundant administrative services being performed. The management team is making progress on
reviewing standard policies and procedures, but the policies are incomplete and inefficiently
shared. The embassy’s intranet Web site includes management policies and management
announcements, but these are not well-organized and, in some cases, are wrongly categorized or
duplicated.

Recommendation 14: Embassy Port-au-Prince should review its management policies and
procedures, and reorganize and categorize them on its intranet Web site for easier access and
navigation by employees. (Action: Embassy Port-au-Prince)

Rightsizing

        The May 2011 Department rightsizing review of Embassy Port-au-Prince assumed an
“optimistic scenario” in which overall staffing would begin to decline by 2016, though American
staffing would increase slightly. The Office of Rightsizing projected an eventual decrease from
1,259 U.S. Government positions (including 125 U.S. direct-hires) to 956 U.S. Government
positions (including 132 U.S. direct-hires). At the time of the inspection, the overall staffing of
the embassy was continuing on an upward trajectory.

National Security Decision Directive 38

       The Ambassador and DCM are acutely aware of the need to be certain the embassy can
support additional staff before approving NSDD-38 requests. They consult with the management
and regional security offices in deciding upon requests to add additional positions. The
                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

management and security offices need to improve their advance planning to ensure that all the
administrative, logistical, and security support needs of the proposed positions can be met. The
Office of Rightsizing provides a reference document titled “Action Request and Guidance for
Chief of Mission NSDD-38 Requests” that provides specific guidance regarding these issues.
The embassy focuses on housing for new positions, but there is no indication or documentation
that it adequately plans for full administrative and security support that meets mission
requirements.

Recommendation 15: Embassy Port-au-Prince should implement a plan to determine the full
administrative and security support requirements and costs for positions proposed for approval
under National Security Decision Directive 38. (Action: Embassy Port-au-Prince)

        The inspection team noted discrepancies in the status of several embassy actions entered
into the Department’s NSDD-38 database. Twenty-five positions were designated as pending,
some since 2006. A review indicated only 6 remained valid; the remaining 19 were removed
from the database. An additional 60 positions dating from 2010 to 2012 appeared in the system.
Neither the inspectors nor the embassy could determine whether the staffing pattern correctly
reflected the positions that were added or eliminated by the NSDD-38 process. Accurate
reconciliation of the staffing pattern is important not only for accountability of staffing levels,
but also to ensure correct ICASS billing.

Recommendation 16: Embassy Port-au-Prince, in coordination with the Office of Management
Policy, Rightsizing, and Innovation, should reconcile all of its National Security Decision
Directive 38 actions against its staffing pattern. (Action: Embassy Port-au-Prince, in
coordination with M/PRI)

Consolidation of Administrative Services

        The urgency of post-earthquake assistance and high-level interest in Haiti generated rapid
growth that focused more on building capacity than maintaining a single administrative service
provider. Redundant services have proliferated. Multiple agencies maintain their own vehicle
fleets, warehouse facilities, residential furniture, and LE staff recruiting. The embassy has not yet
developed a plan to consolidate services. Recent guidance (Department cable 11450, dated
February 7, 2012) directs chiefs of mission and mission directors to “expeditiously complete
action on the consolidation of the 15 administrative services…by 30 September 2012.” It also
directs consolidation of household furniture, furnishings, and appliance pool services.

Financial Management

        The financial management unit is led by an experienced financial management officer
and 13 LE staff members, with 1 position currently vacant. As with every other unit in the
management section, the unit’s workload has grown exponentially since the earthquake. All
voucher clerks and accountants said they had received the appropriate training and all have been
cross-trained to do other work.




                                          30
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




   Funding

            Embassy Port-au-Prince is adequately funded. As staffing levels stabilize, funding will
   likely decrease. In the meantime, the embassy has effectively used existing funding for the
   purchase of equipment and supplies and for providing much needed training to LE staff.
   However, there are several areas that deserve scrutiny such as the large amount of LE staff
   overtime (30,000 hours in a 6-month period in 2011, mostly for local guards, motor pool, and
   facilities staff), the $4.4 million fuel program, and the provision of a BlackBerry device for every
   U.S. direct-hire at the embassy.

   Recommendation 17: Embassy Port-au-Prince should develop a comprehensive plan to review
   all line items in the budget to determine where cost savings are possible. (Action: Embassy Port-
   au-Prince)

   Vouchering

           The embassy uses the remote post support unit system to process a large number of its
   vouchers. Cost of the service is favorable to the embassy. For FY 2012, total cost is projected to
   be $75,000, or $12 per fiscal strip processed. In comparison, in FY 2011 the embassy charged its
   customers $48.43 per fiscal strip processed. Moreover, outsourcing voucher processing enhances
   fiscal oversight and internal controls. The OIG team endorsed the use of the post support unit as
   a cost-effective and managerially sound means to process vouchers.

           Processing of travel vouchers and travel advances are contentious issues at the embassy.
   Department regulations are clear: vouchers are to be completed 5 days after the travel is
   completed (4 FAM 465.1 a.) and additional travel advances are not to be provided until previous
   travel advances are cleared (4 FAM 463.3-4 b.(6)). However, the exigency of urgent business,
   last minute requests for travel advances, and excessive workload are frequently cited reasons
   why these regulations cannot be followed. Outstanding travel advances are far too numerous.
   The embassy is making a concerted effort to reduce the amount outstanding, currently over
   $200,000.

   Recommendation 18: Embassy Port-au-Prince should develop and enforce a policy relating to
   the timeliness of voucher preparation and the issuance of travel advances. The policy should
   address both the regulatory requirements and the needs of the agencies at the embassy to
   effectively perform their business. (Action: Embassy Port-au-Prince)
(b) (5)




                                             31
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

(b) (5)




   International Cooperative Administrative Support Services

           The ICASS council appears to have become more active under its current leadership. An
   ICASS charter was only recently developed and approved. The embassy does not prepare ICASS
   meeting minutes despite a requirement for them (6 FAH-5 H-222.3-9 a.), and there is no
   evidence that the ICASS budget committee has ever met. The council, in effect, is currently
   functioning as both council and budget committee. To its credit, the council has developed a list
   of ICASS concerns that it hopes to address in the near future. The council should take the next
   step of assigning this list to the budget committee and, if necessary, budget subcommittees, for
   action and recommendations.

   Recommendation 20: Embassy Port-au-Prince should require its International Cooperative
   Administrative Support Services budget committee to exercise its responsibilities, including
   identifying areas of potential cost savings and efficiencies. (Action: Embassy Port-au-Prince)

          Informal Recommendation 29: Embassy Port-au-Prince should establish working
          groups as part of the International Cooperative Administrative Support Services budget
          committee to address the list of top priorities already drafted by the council.




                                            32
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 30: Embassy Port-au-Prince should designate a note taker
       for International Cooperative Administrative Support Services council meetings and post
       the minutes on the embassy’s intranet Web site.

       As part of the accountability and feedback process, and as stated in 6 FAH-5 H-222.3-5,
the council chairperson, in collaboration with the council members, and the management
counselor are required to prepare an annual review of ICASS services. Findings in the review are
based on a mutual understanding of roles, responsibilities, and mission priorities among mission
community members. This assessment is sent through the DCM to the Ambassador for his
information. The report is due to the Ambassador by June 1 annually.

Recommendation 21: Embassy Port-au-Prince should prepare an annual review of services
provided under International Cooperative Administrative Support Services. (Action: Embassy
Port-au-Prince)

Human Resources

        The human resources unit is staffed with one U.S. direct-hire officer and seven LE staff
members. An American eligible family member position was vacant at the time of the inspection.
As with other areas of management, the human resources office has taken advantage of available
funding to provide its staff adequate training and cross-training. The current human resources
officer is the first incumbent of the position that was established at the embassy following the
2010 earthquake. Prior to 2010, the Florida Regional Center provided oversight for the human
resources office; now, the regional center provides minimal support

       Like other units in the management section, the human resources unit is overwhelmed
with urgent action requirements that allow it little time to establish and implement internal
controls. For example, much of the overtime at the embassy (usually several thousand hours per
month) is not preapproved. The embassy issued a management notice regarding overtime and
compensatory time in October 2011, but as with so many other matters at the embassy, the
exigency of business has often taken precedence over the need to follow regulations and policies.

Evaluation reports

        Although U.S. direct-hire and eligible family member reports are completed on time,
there is a large backlog of uncompleted evaluation reports for the LE staff. During the
inspection, a total of 135 employee performance reviews were overdue, 94 of which applied to
local guard force or other security personnel. Supervisors must adequately monitor performance
to meet the embassy’s operational goals and to maintain LE staff morale.

Recommendation 22: Embassy Port-au-Prince should implement a plan that results in timely
completion of locally employed staff employee performance reviews throughout the embassy,
with clearly defined consequences for delinquent reports. (Action: Embassy Port-au-Prince)

Awards

       In 2011, 236 employees of the mission received performance awards. In September 2011,
the embassy implemented the Department’s new interagency mission award policy that now
                                         33
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

allows all agencies to participate in one embassy-wide award program. A review of the awards
policy shows it is adequate in all respects but one. The committee is not provided specific
instructions relating to rejected awards. If the committee decides the award nomination is
insufficient, it must be returned to the nominator for revision or altogether dismissed.

       Informal Recommendation 31: Embassy Port-au-Prince should revise and reissue the
       awards policy to include specific guidance relating to rejected awards.

Visitor List

         The DCM’s office management specialist prepares a visitor list once a week and
distributes it to selected offices. She obtains information from the Department’s eCountry
Clearance database and emails from other agency officials. However, there is no assurance that
this list captures all visitors to the embassy, and therefore, the embassy does not capture related
ICASS costs. The management section does not maintain a list.

       Informal Recommendation 32: Embassy Port-au-Prince should implement a plan to
       account for official visitors and capture the associated costs in an accurate and timely
       manner, including delegating to one element of the embassy the responsibility to
       maintain an authoritative list.

Locally Employed Staff Compensation

        Port-au-Prince implemented a 16 percent overall average wage increase to basic LE
compensation rates in 2011. Due to the wage freeze, funds for potential wage increases for 2012
are not being made available to the embassy. The embassy currently has a retirement plan
managed by a local firm but the plan is as much as $13 million underfunded. Embassy Port-au-
Prince will be allowed to participate in the Foreign Service national defined contribution plan.
The receipt of a cable with such approval was still pending at the time of the inspection. The LE
staff does not participate in the local social security system.

Language Instruction Program

        The inspection team reviewed the language designations assigned to each position and
found them to be appropriate. The inspection team concurs in the current practice of French as
the essential designated language. Although none of the positions has a Haitian Creole language
designation, several employees are able to complete the Foreign Service Institute 8-week Haitian
Creole course after their French language instruction and they rate the course positively.

        In the earthquake’s aftermath, the Department approved waivers for assignments into
positions with language designations so that essential functions could be met. As part of the
return to normalcy, the Ambassador has discouraged language waivers and employees’ arrival
dates have been delayed until necessary language proficiency levels are met. The Bureau of
Diplomatic Security’s commitment to schedule security officers for requisite language training
and avoid language waivers will help improve French capabilities in the regional security office
in the next assignment cycle.



                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The Department and USAID are cosponsors of the post language program. The French
and Haitian Creole instructors are USAID full-time employees. The Foreign Service Institute
funds the teaching materials. Agencies reimburse USAID for classes taken by their employees.
USAID employees are a majority of the 41 students and 5 students are eligible family members.
Instructional hours are scheduled to facilitate employees’ attendance. Online resources are also
available.

        Numerous employees told the inspection team that Haitian Creole is valuable for both
professional and social purposes. The inspectors identified Haitian Creole fluency to be
especially useful for consular, general services, information technology, public diplomacy, and
reporting officers, and for the assistant regional security officers. Office management specialists
and others also benefit from Haitian Creole skills. A concerted investment of time for employees
to complete the 8-week Haitian Creole course would contribute to improving morale in the
challenging work environment.

Recommendation 23: Embassy Port-au-Prince, in coordination with the Bureau of Human
Resources, the Bureau of Western Hemisphere Affairs, and the Bureau of Consular Affairs,
should build the Foreign Service Institute 8-week Haitian Creole course into as many assignment
schedules as possible. (Action: Embassy Port-au-Prince, in coordination with DGHR, WHA, and
CA)

        Broader use of the post language program also would help to develop and maintain
employees’ fluency in French or Haitian Creole so they could use language skills more
effectively in their work.

       Informal Recommendation 33: Embassy Port-au-Prince should implement a plan to
       encourage employees to pursue and maintain French or Haitian Creole language skills.

Equal Employment Opportunity

        Port-au-Prince has two Equal Employment Opportunity (EEO) counselors. Both have
received the mandatory EEO counselor training. In 2011, they organized a series of three
training programs in the embassy that included about 250 American and Haitian employees.
Despite this activity, it appears that more can be done to promote EEO at the embassy. Since
April 2011, there has been no EEO information circulated to employees. The embassy’s intranet
Web site makes no mention of EEO and information regarding the program or the counselors is
not widely displayed in public locations. Additionally, the embassy has no LE staff member
serving as an EEO liaison. These additions would enhance and promote EEO awareness at the
embassy.

       Informal Recommendation 34: Embassy Port-au-Prince should post information
       concerning the Equal Employment Opportunity program on its intranet Web site.

       Informal Recommendation 35: Embassy Port-au-Prince should display its Equal
       Employment Opportunity information in more visible and public locations.

       Informal Recommendation 36: Embassy Port-au-Prince should appoint several of its
       locally employed staff members as Equal Employment Opportunity liaisons.
                                          35
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



    General Services

           The general services unit shouldered a significant share of the post-earthquake recovery
    burden while simultaneously coping with, and building capacity to support, a rapid increase in
    embassy staffing. Even with the addition of two assistant general services officers and a
    generally proficient LE staff, the unit has been hard-pressed to keep pace. Attending to expedient
    and immediately urgent tasks has superseded standard operating procedures and internal
    controls. Staffing gaps and lack of continuity due to a succession of temporary duty employees in
    the supervisory position have had a negative impact on the unit during a critical time period. The
    imminent arrival of a permanent supervisory general services officer may provide the continuity
    and leadership that has been missing for many months.

            Automation of general services has come slowly and late to Embassy Port-au-Prince; it
    will be one of the last posts in the Department to implement the Integrated Logistics
    Management System. Installation is scheduled for March 2012, and the system should be helpful
    in defining processes and instilling discipline and collaboration among customers, general
    services users, and financial management staff.

    Property Management

            Upon arrival, the entry-level assistant general services officer responsible for property
    management established an ambitious project list that he is systematically accomplishing. He is
    addressing short-term tasks, such as disposing of damaged and unneeded property, as well as
    long-term needs, such as establishing standard procedures. However, the inspection yielded a
    number of specific areas that expose the embassy to risk.
(b) (5)




    Recommendation 24: Embassy Port-au-Prince should implement a plan that establishes an
    accurate baseline inventory and adequate accountability for and tracking of all nonexpendable
    property, including information technology equipment. (Action: Embassy Port-au-Prince)

            Residential property controls were in large part suspended after the earthquake. Many
    residences were deemed unsafe to enter under any circumstances, so the embassy wrote off the
    furniture, furnishings, and appliances in 37 housing units. Disposal documents, including DS
    Form 132, appeared complete and in order. However, more than 20 current employees have
    failed to sign their residential inventories as required by 14 FAM 416.3 g., so those occupants
    have not properly assumed accountability for the property.



                                              36
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 37: Embassy Port-au-Prince should implement a procedure
       that requires occupants to inventory property in their residences and return inventory
       documents to the general services unit in a timely manner.

        The receiving function appears to work satisfactorily. The receiving clerk position has
been vacant since August 2011, but a backup employee is performing those duties. As 14 FAM
413 states, the receiving clerk “is the link between the procurement, property, accountability, and
certifying functions.” The clerk therefore plays an important role in the greater supply chain
management system.

       Informal Recommendation 38: Embassy Port-au-Prince should recruit, hire, and train a
       receiving clerk.

Motor Pool Operations

         The motor pool delivers adequate service to its customers on a daily basis, as reflected in
relatively high scores on the OIG questionnaire compared to other embassy units. In addition to
fulfilling on-demand transportation requests, it operates 14-18 daily employee home-to-office
shuttles, provides student transportation to three schools, and delivers fuel and water to
residences. The unit also meets the requirements of the large number of logistically demanding
high-level visits to the embassy. Of the 34 drivers, 4 are dedicated to the executive office and 5
are dedicated to the fuel and water trucks.

         The recently published vehicle policy continues the provision of no-cost, home-to-office
transportation. This policy does not meet the requirement of 14 FAM 433.4 a.(2) that no-cost
transportation is “in an armored vehicle with a security escort.” In contradiction to the
justification on the grounds of security, employees are allowed to drive the same routes in their
personally owned vehicles, which are authorized for shipment to the embassy.

Recommendation 25: Embassy Port-au-Prince should bring its home-to-office transportation
policy into compliance with regulations on charges for other authorized use of official vehicles.
(Action: Embassy Port-au-Prince)

        As a consequence of the home-to-office shuttle shifts, many drivers are beginning their
duty day at 5:30 a.m. and working until 6:00 p.m. or later. Earlier efforts to stagger work hours
to avoid violating the Department’s Motor Vehicle Safety Management Program’s 10-hour limit
on a driver’s duty shift failed. The Department policy allows exceeding the 10-hour limit under
exceptional circumstances, but the embassy is doing so routinely and without the required
approval by the principal officer. More importantly, the practice poses a safety problem that is
exacerbated by the difficult road and driving conditions in Haiti.

Recommendation 26: Embassy Port-au-Prince should bring driver duty shifts into compliance
with the Motor Vehicle Safety Management Program. (Action: Embassy Port-au-Prince)

       The embassy’s latest Integrated Logistics Management System inventory lists 216
vehicles. There are 294 vehicles at the embassy, including 44 belonging to USAID and 31
belonging to the Centers for Disease Control and Prevention. The post-earthquake increase of
personnel and the immediate need to support their missions resulted in rapid acquisition of
                                          37
                              SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

          vehicles. The absence of a consolidated support platform allowed vehicle acquisition with no
          overall coordination. As the embassy moves toward normalcy and achieving Quadrennial
          Diplomacy and Development Review objectives related to single service providers, a review of
          its fleet per 14 FAM 434.3 will ensure the right mix of passenger and cargo-carrying vehicles
          and that vehicles are assigned and used properly.

          Recommendation 27: Embassy Port-au-Prince should conduct a motor vehicle fleet review in
          accordance with Department of State regulations and take appropriate steps to match its
          inventory with the results of the review. (Action: Embassy Port-au-Prince)
(b) (5)




          Recommendation 28: Embassy Port-au-Prince should implement a plan to improve internal
          controls and oversight of its residential and embassy compound fuel operations. (Action:
          Embassy Port-au-Prince)

          Procurement

                  The procurement unit is staffed with proficient LE staff and is supervised by an assistant
          general services officer who has it as his only area of responsibility. The unit functions well and
          generally follows defined procedures. It has benefited from automation and its earlier adoption of
          Web Post Administrative Software Suite Procurement should make conversion to the Integrated
          Logistics Management System easier. Its automated database is relatively well maintained,
          though the unit finds it difficult to close purchase orders due to a cumbersome process of
          combing through pending transactions and working with the financial management section to
          verify final payment to vendors. The inspection team conducted a spot check of purchase orders
          and found them to be neat, well documented, and complete.

                 The embassy currently maintains seven formal contracts. Files are maintained in good
          order and appeared complete, with a few exceptions. The contracting officer’s representatives for
                                                    38
                                        SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the travel management and cellular phone service contracts had not completed the required
training as required by 14 FAH-2 H-113 c.

       Informal Recommendation 39: Embassy Port-au-Prince should require that contracting
       officer’s representatives complete training as required by regulation.

Examination of the contracts also indicated that four of them did not include the mandatory
Federal Acquisition Regulation clause 52.222-50 pertaining to trafficking in persons. Two of the
contracts will be renewed or rebid soon, at which time the unit will include the clause. The
remaining two have not yet been amended to add the clause.

Recommendation 29: Embassy Port-au-Prince should include Federal Acquisition Regulation
clause 52.222-50 in its formal contracts. (Action: Embassy Port-au-Prince)

Housing and Real Property

        Finding safe (including seismically approved), secure, and maintainable housing has been
one of the embassy’s greatest challenges. Fifty-nine percent of embassy housing was lost in the
earthquake or its aftermath and suitable buildings that meet seismic standards are difficult to
find. Of 648 residences inspected between February 2010 and February 2012, the embassy
brought only 100, about 15 percent, under lease. The rapid increase in staffing made the task
even more difficult. The Bureau of Overseas Buildings Operations has been supportive
throughout.

        Eighteen government-owned units are currently occupied, another 19 are scheduled for
completion in July 2012, and plans are under way for the construction of 86 additional units on
property close to the embassy compound. The completion of the housing units will result in
significant cost savings of at least $3 million from reduced guard force requirements,
consolidation of generator sets, and more efficient delivery of fuel and water as well as
maintenance services. By reducing employee commuting time, the completion of the housing
projects will also have a positive impact on morale. However, it will increase the time children
spend commuting to school, and may deter some parents of school-age children from seeking
assignments to Port-au-Prince.

        In the meantime, the embassy has made great progress in leasing and making ready a
pool of residences that almost matches the current staffing, though additional positions continue
to be added with short notice. The Interagency Housing Board assignment process has improved
in the past several months and documentation of proceedings is adequate. OIG questionnaires
and interviews raised disparities in cable television and Internet equipment and services provided
by some agencies and not by others. As stated in 15 FAM 212.2-2 c., the housing board ensures
that the embassy housing policy and standards are “equitably applied to employees of all
agencies.” It also prescribes an “interagency-approved list of furniture, furnishings, appliances,
and equipment to be provided in U.S. Government-furnished residential quarters.” The embassy
guidebook dated February 2011 contains a list of basic furniture, furnishings, appliances, and
equipment, but does not address supplemental items, such as satellite dishes and decoders.




                                         39
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 30: Embassy Port-au-Prince should amend its housing policy to equitably
provide furniture, furnishings, appliances, and equipment to employees of all agencies, and
update the housing handbook to reflect this policy. (Action: Embassy Port-au-Prince)

Customs, Shipping, and Travel

         The most recent packing and crating contract expired in April 2009. The 2010 earthquake
interrupted processing of a follow-on contract. Since then, the embassy has issued individual
purchase orders for each job on a sole source basis and without a sufficient statement of work
and description of services. The embassy has not reexamined the basis for the sole source
justification to verify its continued validity. The absence of a description of services ignores a
fundamental requirement of procurement and exposes the U.S. Government to liability, for
example, in case of damage due to poor packing and crating. The purchase orders do not meet
the competition requirements of the Department’s Overseas Contracting and Simplified
Acquisitions Guidebook (Chapter 2 VII A) or the guidance regarding packing service standards
provided in 14 FAM 614.5-1b. In FY 2011 and in FY 2012 up to the time of the inspection, the
embassy issued 30 purchase orders valued at $357,279. The embassy is developing a new
indefinite delivery/indefinite quantity contract for packing and crating, but it is in its early stages.

Recommendation 31: Embassy Port-au-Prince should describe service standards for, and
compete procurement of, packing and shipping services. (Action: Embassy Port-au-Prince)

Facilities Management

         The facilities management unit appears overwhelmed by its routine maintenance and
project workload. OIG questionnaires indicated concerns about the performance and
management of the unit among a wide spectrum of the embassy staff. In recognition of the unit’s
increased workload, the ICASS council approved, in FY 2011, an additional 18 positions for
facilities management. As of the inspection, however, only 10 positions had been filled. The
major delay has been the supervisor’s slow preparation of position descriptions. Projects
involving the consular section also have languished: office space reconfiguration to
accommodate two officers and a consular entrance project to eliminate flooding and the need for
pallet walkways during the rainy season.

        In recognition of the unit’s significant workload, the Bureau of Overseas Buildings
Operations provided temporary duty support to the embassy in the form of a personal services
contractor who served as a deputy facilities manager from April to December 2011. The
operational tempo continues apace and the demand for facilities management has not abated,
prompting the embassy to initiate action to request another temporary duty employee. The
inspection team supports the request.

        In the meantime, much work remains to improve customer service and satisfaction, build
the in-house, residential, make-ready program now that the contract covering those services has
been terminated, and make progress on the many projects that will improve government-owned
properties. On the supervisory level, the embassy needs to focus on and strengthen leadership,
management, and communications aspects of the facilities program. The facilities manager needs
to work toward identifying and being accountable for specific objectives, tasks, standards, and
milestones.
                                           40
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Recommendation 32: Embassy Port-au-Prince should implement and monitor a work plan that
addresses all aspects of its facilities management program, both routine and nonroutine. (Action:
Embassy Port-au-Prince)

Safety, Health, and Environmental Management

       The Safety, Health, and Environmental Management program is not functioning. The
Post Occupational Safety and Health officer informed the inspection team that the committee last
met in November 2011, but minutes remained unpublished. The officer had no record of any
meetings since 2009, despite the requirement of 15 FAM 933.2 that the committee meet at least
semiannually. ( b) (5)




Recommendation 33: Embassy Port-au-Prince should conduct workplace hazard identification
and assessment inspections as required by Department of State regulations. (Action: Embassy
Port-au-Prince)

       Informal Recommendation 40: Embassy Port-au-Prince should conduct Safety, Health
       and Environmental Management committee meetings as required by Department of State
       regulations.

Information Management and Information Security

        Despite the disruptions caused by natural disasters and the lack of consistency in program
management, the IM program continues to meet the embassy’s basic information technology and
communication needs. Neither the LE nor the American staff has fully transitioned back to the
pre-earthquake business routines. The focus is on meeting daily business needs without
establishing consistency in service delivery and inclusion of other sections for collaborative
solutions. Management has not allocated time for close supervision or establishing and enforcing
policies and standards for operating services. The LE staff has adequate training, but requires
guidance and oversight from management. Since September 2011, the program has been
appropriately staffed and is operating with 5 direct-hire and 16 LE staff.

        The embassy’s IM program provides a classified and unclassified network, dedicated
Internet network, diplomatic post office, local mail, pouch, radio, telephone, and switchboard
services. (b) (5)




                                         41
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

(b) (5)




    Recommendation 34: (b) (5)



    Information Systems Center

            The information systems center manages the unclassified network. It supports over 400
    users and manages 360 computers, including 8 servers. The unit is staffed with eight LE staff
    members and an information systems officer who oversees the operation. The information
    systems officer reports to the IM officer who is charged with managing the embassy’s IM
    program. Both the American and LE staff are capable, but there is a lack of open communication
    in the unit (b) (5)
                                  There are no regularly scheduled meetings for the staff to exchange
    ideas and for management to followup on work progress. IM management initiates tasks but then
    shifts priorities without consulting or informing the LE staff. (b) (5)




           Informal Recommendation 41: Embassy Port-au-Prince should establish regular
           meetings in the information service center to facilitate open communication and build
           team relationships.

            The staff is receiving relevant systems training for their duties but has not completed
    training in protecting personally identifiable information. According to State cable 054244 from
    2010, all employees who work with personally identifiable information must take the course.
    The staff’s daily systems duties give them access to personally identifiable data.

           Informal Recommendation 42: Embassy Port-au-Prince should provide training to the
           information services center staff on protecting personally identifiable information.
 (b) (5)




                                             42
                                 SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

  (b) (5)




          Recommendation 35: (b) (5)




          Standard Operating Procedures

                 Embassy Port-au-Prince does not have documented standard operating procedures for
          administering and maintaining its systems as required by 5 FAM 867 and 12 FAM 629.2-11.
          Routine systems administrative tasks such as computer access management, systems backup and
          recovery, and systems maintenance logs are not standardized and documented. (b) (5)




          Recommendation 36: Embassy Port-au-Prince should implement standard operating procedures
          to include systems maintenance, account and computer resources management, and systems
          backup and recovery procedures. (Action: Embassy Port-au-Prince)
(b) (5)




                 Informal Recommendation 43: (b) (5)


 (b) (5)




                                                   43
                                       SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

  (b) (5)




      Recommendation 37: (b) (5)



(b) (5)




      Recommendation 38: (b) (5)


      Maintaining Accurate User Records

              The embassy does not have a standardized process for the human resources unit to notify
      the IM section when embassy staff enter on duty or leave the embassy. There are checklists for
      arriving and departing employees, but employees do not use them consistently and embassy
      management does not enforce their use. The absence of a formalized process compounded by the
      large number of temporary duty personnel changes has made computer access control a
      challenge for the IM staff. Also, the IM staff does not have an internal procedure to manage
      accounts based on personnel status changes and the ISSO is not involved in the computer access
      control process. The inspection team reviewed the account activity on the embassy network and
      identified many accounts that do not comply with the Department’s computer account
      management policy. Inactive user accounts left behind by temporary and former employees can
      be used to impersonate legitimate users, thereby making discovery of malicious activities
      difficult. According to 12 FAM 621.3-3, data center managers and system managers should be
      notified of all employees and contractors who are transferred or terminated.

      Recommendation 39: Embassy Port-au-Prince should implement a process to notify the
      information management section of staffing changes that affect network user accounts. (Action:
      Embassy Port-au-Prince)

             Informal Recommendation 44: Embassy Port-au-Prince should implement a standard
             operating procedure for managing network user accounts.
(b) (5)




                                               44
                                   SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      45
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      46
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED


(b) (5)




                      47
          SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


      Quality of Life
(b) (5)




             Informal Recommendation 51: (b) (5)




      Community Liaison Office

               The embassy hired a full-time community liaison office coordinator as soon as
      dependents began to return to Port-au-Prince after the earthquake. She received formal training
      soon thereafter, and initiated a robust program of activities designed to improve morale and
      increase community integration. She is assisted by a full-time LE staff member who is an
      experienced event planner. Recently, the coordinator has increased the range of sponsored
      activities to include more opportunities to explore areas outside Port-au-Prince. Costs for these
      activities are mainly borne by the participants, though some are subsidized by the American
      employees’ association. Access to organized excursions that include transportation is important
      for maintaining morale in the embassy; driving conditions are extremely difficult and combined
      with security zone restrictions, deter most people from exploring on their own. Regular
      consultation with community members will ensure that activities continue to address their needs.
      The inspection team suggested methods for soliciting more ideas and feedback from the
      community.

              The community liaison office coordinator has given priority to sponsorship and
      orientation. She has updated the embassy’s welcome material and taken responsibility for
      drafting the embassy’s welcome guidebook. She adopted a system of social sponsors to
      supplement each office’s internal sponsors. The embassy has a sponsor checklist to help both
      official and social sponsors prepare for new arrivals but the inspection team found that some
      employees had not received adequate sponsorship. The inspection team counseled the
      community liaison office coordinator on ways to ensure that sponsors are effective.

             The community liaison office coordinator meets regularly with the Ambassador and
      DCM, and receives guidance as needed from the management counselor, who is her supervisor.
      She will transfer from post this summer and the embassy is in the process of recruiting a
      replacement to avoid a long staffing gap in this crucial position.




                                               48
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



American Employee Association

        The small American employee association provides limited services to the community,
including a cafeteria and coffee bar, a small sales store, and several other personal service
activities. The association’s charter and by-laws are current and the Department’s Commissary
and Recreation office approved a recently prepared license agreement. The last audit was
performed on time, yet the association has not completed and submitted its semiannual financial
statement for the period from January to June 2011.

       Informal Recommendation 52: Embassy Port-au-Prince should complete the January-
       June 2011 semiannual financial statements for its American employee association and
       forward them to the Department of State, and should also complete the July-December
       2011 statement.

       The last audit report, which was completed in 2011, showed that in 2010 the association
made over $38,000 in profits on gross sales of $44,700. According to 6 FAM 531.4, profits from
employee associations are not limited but must not be excessive. Pricing must allow for a profit
margin that enables the organization to maintain solvency and ensure that its activities exist for
future members. The association has no plan for spending the profits.

Recommendation 42: Embassy Port-au-Prince should develop a plan for its American
employee association to determine the appropriate amount of profit it needs to keep it sustainable
and reduce the current profit margin accordingly. (Action: Embassy Port-au-Prince)

         The employee association has a page on the embassy’s intranet Web site, but it contains
little information on its administration and finances. General documents such as the charter, by-
laws, meeting minutes, and financial reports could be included as useful information to the
association community.

       Informal Recommendation 53: Embassy Port-au-Prince should place relevant
       information concerning its employee association on the embassy’s intranet Web site.

Medical Unit

        The medical unit is staffed with a full-time nurse practitioner whose position was added
after the 2010 earthquake, a full-time U.S.-trained local nurse, and a part-time local doctor. The
regional medical officer in Fort Lauderdale, the regional psychiatrist in Bogota, and the regional
medical technician in Mexico City provide excellent support. The unit functions well and
recorded the highest service scores on the OIG’s work and quality of life survey. The unit is well
equipped, taking advantage of sufficient funding in the past 2 years to address previous
equipment and supply shortfalls.

       The medical unit bore a major brunt of the effects of the 2010 earthquake. For a long
period of time the unit was providing more than just basic care to the American and LE staff
most affected by the disaster. As time passed, the medical unit attempted to reduce the services
rendered to the LE staff in accordance with 16 FAM 122. A March 2011 management notice
addressed health unit services for the LE staff, but the embassy does not have an access policy.
                                         49
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 43: Embassy Port-au-Prince should establish a health unit access policy for
the mission. (Action: Embassy Port-au-Prince)

Overseas Schools

       Eight embassy children currently attend the Department-supported (b)(5)(b)(6)

           In FYs 2010 and 2011, the Department supplied $820,000 in grants, mainly used for
reconstruction and repair of the school, which was severely damaged in the 2010 earthquake.
The grants also provided for the purchase of U.S. educational materials and equipment and
funded the salaries of U.S. citizen, U.S.-trained or U.S.-certified professional staff. The
Ambassador has actively participated on the school’s board of directors, and has worked closely
with the school’s administration to help improve both the quality of education at the school and
to modify the social and cultural dynamics that affected the educational experience for dependent
students. The DCM is presently the Ambassador’s official representative on the school board.
The school’s administration and board have been responsive to the concerns of parents.

        The embassy is properly concerned about security of (b)(5)(b)(6)        facilities and
students as well as security of students attending other schools. The embassy issued a
management policy in August 2011, authorizing transportation to and from (b)(5)(b)(6) schools
for students whose tuition and fees are authorized to be paid by the U.S. Government in
accordance with Department of State Standardized Regulations chapter 270. It is unclear why the
embassy excluded(b)(5)(b)(6) school.

       Informal Recommendation 54: Embassy Port-au-Prince should amend its school
       transportation policy to clarify that it will provide transportation to and from school for
       all students whose tuition and fees are authorized to be paid by the U.S. Government.




                                          50
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Management Controls
       Embassy Port-au-Prince management controls need improvement. The requirements
imposed on the embassy in the aftermath of the earthquake—increased staffing, need for
additional housing, influx of funding, temporary duty visitors, high-level visits, and pressure to
disburse assistance quickly—exerted pressure on the management section to show quick
progress, unfortunately to the detriment of internal controls. The hectic pace led to
communication breakdowns, which also served to weaken controls. Now there is a need to
gradually transform the embassy back to normalcy and, as that happens, to strengthen internal
management controls .

        The Chief of Mission has delegated management controls coordinator responsibilities to
the management officer. The embassy reported in its July 2011 chief of mission controls
statement only one material weakness—the underfunding of the supplemental defined pension
plan for locally employed staff. An independent audit in FY 2010 determined that the plan was
underfunded by over $13 million. Although not a problem at this time, the underfunding of the
plan could eventually have an adverse effect on the embassy’s ability to meet its obligations
under the LE staff retirement program. Consequently, the Bureau of Human Resources, Office of
Overseas Employment is working with the embassy to transition to a defined contribution plan.
At the time of the inspection, that plan was still under review in the Department.

       Several weaknesses in internal controls are detailed throughout the report(b) (5)




Recommendation 44: Embassy Port-au-Prince should perform a risk assessment of
management controls to identify weak areas and then prioritize corrective actions. (Action:
Embassy Port-au-Prince)

Narcotics Affairs Section Grants Management

         INL manages the majority of grants and contracts for Haiti. The embassy’s narcotics
affairs section has a certified contracting officer’s representative and grants officer. In addition, a
contracting officer’s representative is scheduled to arrive in mid- to late 2012 to fill a new
contracting officer position.

        In January and February 2012, the embassy began processing a number of grants and
contracts, some of which will be managed locally and some in amounts exceeding $200,000. The
financial documentation in the narcotics affairs section was disorganized. The inspection team
could not confirm whether the section’s LE staff had completed appropriate grants and contract
training and were unable to review the grants budget database to verify compliance with the
Office of the Procurement Executive Grants Policy Directive 28. Incomplete documentation risks
misuse of U.S. assistance funds.


                                           51
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 45: Embassy Port-au-Prince should organize and maintain the narcotics
affairs section budget database and grants and contracts documentation in compliance with
Federal Assistance Financial Management requirements and conduct grants and contract training
for narcotics affairs section staff. (Action: Embassy Port-au-Prince)

Consular Management Controls

       The inspection team reviewed consular internal controls, including cash accountability,
inventory records of controlled supplies, consular automated systems roles, and visa adjudication
review records. Cash collections were conducted in compliance with 7 FAH-1 H-771 f., and
inventory records, including signed transfer of accountability documents, were complete.
Consular systems roles were correctly assigned to employees currently at the embassy, including
the ARSO-I. However, the Bureau of Consular Affairs had assigned user roles to 31 employees
who worked on the Port-au-Prince consular automated system in response to the 2010
earthquake but are no longer at the embassy. The accountable consular officer at the embassy did
not have authority to disable them. During the inspection, he requested that the Bureau of
Consular Affairs do so.

        The DCM was properly conducting the required visa adjudication reviews. The
inspection team counseled consular managers on the need to perform visa adjudication reviews
promptly and to use their observations to help enhance the performance of ELOs, which they
acted upon during the inspection.




                                         52
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Port-au-Prince should develop a strategic plan for steady
progress toward normalization of embassy operations and procedures and the executive office
should capture the expertise of the officers about to depart the embassy in that plan. (Action:
Embassy Port-au-Prince)

Recommendation 2: Embassy Port-au-Prince should implement a system for employee
compliance with guidance on using the State Messaging and Archive Retrieval Toolset software
system to archive email and other correspondence. (Action: Embassy Port-au-Prince)

Recommendation 3: Embassy Port-au-Prince should enter biographic information on the
unclassified Diplopedia system and it should enter classified leadership profiles on the
Intellipedia system. (Action: Embassy Port-au-Prince)

Recommendation 4: Embassy Port-au-Prince should designate appropriate officers to manage
munitions controls and Department of Commerce-administered dual-use export controls.
(Action: Embassy Port-au-Prince)

Recommendation 5: Embassy Port-au-Prince should issue an annual management notice
explaining the scope of Leahy vetting requirements. (Action: Embassy Port-au-Prince)

Recommendation 6: Embassy Port-au-Prince, in coordination with the Bureau of Human
Resources and the Bureau of Western Hemisphere Affairs, should convert one of its entry-level
officer rotational positions into a 2-year economic tour. (Action: Embassy Port-au-Prince, in
coordination with DGHR and WHA)

Recommendation 7: Embassy Port-au-Prince should request missing reports and
documentation from delinquent FYs 2010 and 2011 grantees. No further grants to those entities
should be approved until delinquent reports are received. (Action: Embassy Port-au-Prince)

Recommendation 8: Embassy Port-au-Prince should modify its appointment system to
effectively control the flow of applicants for consular services. (Action: Embassy Port-au-Prince)

Recommendation 9: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Port-au-Prince, should repair the inadequate drainage conditions outside the consular
entrance. (Action: OBO, in coordination with Embassy Port-au-Prince)

Recommendation 10: Embassy Port-au-Prince, in coordination with the Bureau of Overseas
Buildings Operations, should construct awnings and place benches in the exterior waiting areas
and courtyard to provide protection from the elements for consular clientele waiting for
admission to the interior waiting areas. (Action: Embassy Port-au-Prince, in coordination with
OBO)

Recommendation 11: Embassy Port-au-Prince should immediately cease having a vendor
collect a fee for storing electronic equipment outside the consular public entrance and make the
regional security office responsible for this security function. (Action: Embassy Port-au-Prince)


                                         53
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of Consular Affairs, in coordination with the Office of the
Legal Adviser, should act on Embassy Port-au-Prince’s proposal for a prisoner transfer treaty.
(Action: CA, in coordination with L)

Recommendation 13: Embassy Port-au-Prince, in coordination with the Bureau of Overseas
Buildings Operations, should construct office space within the consular section that meets
standard requirements for the assistant regional security officer-investigations and staff. (Action:
Embassy Port-au-Prince, in coordination with OBO)

Recommendation 14: Embassy Port-au-Prince should review its management policies and
procedures, and reorganize and categorize them on its intranet Web site for easier access and
navigation by employees. (Action: Embassy Port-au-Prince)

Recommendation 15: Embassy Port-au-Prince should implement a plan to determine the full
administrative and security support requirements and costs for positions proposed for approval
under National Security Decision Directive 38. (Action: Embassy Port-au-Prince)

Recommendation 16: Embassy Port-au-Prince, in coordination with the Office of
Management Policy, Rightsizing, and Innovation, should reconcile all of its National Security
Decision Directive 38 actions against its staffing pattern. (Action: Embassy Port-au-Prince, in
coordination with M/PRI)

Recommendation 17: Embassy Port-au-Prince should develop a comprehensive plan to review
all line items in the budget to determine where cost savings are possible. (Action: Embassy Port-
au-Prince)

Recommendation 18: Embassy Port-au-Prince should develop and enforce a policy relating to
the timeliness of voucher preparation and the issuance of travel advances. The policy should
address both the regulatory requirements and the needs of the agencies at the embassy to
effectively perform their business. (Action: Embassy Port-au-Prince)

Recommendation 19: (b) (5)



Recommendation 20: Embassy Port-au-Prince should require its International Cooperative
Administrative Support Services budget committee to exercise its responsibilities, including
identifying areas of potential cost savings and efficiencies. (Action: Embassy Port-au-Prince)

Recommendation 21: Embassy Port-au-Prince should prepare an annual review of services
provided under International Cooperative Administrative Support Services. (Action: Embassy
Port-au-Prince)

Recommendation 22: Embassy Port-au-Prince should implement a plan that results in timely
completion of locally employed staff employee performance reviews throughout the embassy,
with clearly defined consequences for delinquent reports. (Action: Embassy Port-au-Prince)

Recommendation 23: Embassy Port-au-Prince, in coordination with the Bureau of Human
Resources, the Bureau of Western Hemisphere Affairs, and the Bureau of Consular Affairs,
should build the Foreign Service Institute 8-week Haitian Creole course into as many assignment
                                               54
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

schedules as possible. (Action: Embassy Port-au-Prince, in coordination with DGHR, WHA, and
CA)

Recommendation 24: Embassy Port-au-Prince should implement a plan that establishes an
accurate baseline inventory and adequate accountability for and tracking of all nonexpendable
property, including information technology equipment. (Action: Embassy Port-au-Prince)

Recommendation 25: Embassy Port-au-Prince should bring its home-to-office transportation
policy into compliance with regulations on charges for other authorized use of official vehicles.
(Action: Embassy Port-au-Prince)

Recommendation 26: Embassy Port-au-Prince should bring driver duty shifts into compliance
with the Motor Vehicle Safety Management Program. (Action: Embassy Port-au-Prince)

Recommendation 27: Embassy Port-au-Prince should conduct a motor vehicle fleet review in
accordance with Department of State regulations and take appropriate steps to match its
inventory with the results of the review. (Action: Embassy Port-au-Prince)

Recommendation 28: Embassy Port-au-Prince should implement a plan to improve internal
controls and oversight of its residential and embassy compound fuel operations. (Action:
Embassy Port-au-Prince)

Recommendation 29: Embassy Port-au-Prince should include Federal Acquisition Regulation
clause 52.222-50 in its formal contracts. (Action: Embassy Port-au-Prince)

Recommendation 30: Embassy Port-au-Prince should amend its housing policy to equitably
provide furniture, furnishings, appliances, and equipment to employees of all agencies, and
update the housing handbook to reflect this policy. (Action: Embassy Port-au-Prince)

Recommendation 31: Embassy Port-au-Prince should describe service standards for, and
compete procurement of, packing and shipping services. (Action: Embassy Port-au-Prince)

Recommendation 32: Embassy Port-au-Prince should implement and monitor a work plan that
addresses all aspects of its facilities management program, both routine and nonroutine. (Action:
Embassy Port-au-Prince)

Recommendation 33: Embassy Port-au-Prince should conduct workplace hazard identification
and assessment inspections as required by Department of State regulations. (Action: Embassy
Port-au-Prince)

Recommendation 34: (b) (5)



Recommendation 35: (b) (5)




                                          55
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 36: Embassy Port-au-Prince should implement standard operating
procedures to include systems maintenance, account and computer resources management, and
systems backup and recovery procedures. (Action: Embassy Port-au-Prince)

Recommendation 37: (b) (5)



Recommendation 38: (b) (5)


Recommendation 39: Embassy Port-au-Prince should implement a process to notify the
information management section of staffing changes that affect network user accounts. (Action:
Embassy Port-au-Prince)

Recommendation 40: (b) (5)



Recommendation 41: (b) (5)



Recommendation 42: Embassy Port-au-Prince should develop a plan for its American
employee association to determine the appropriate amount of profit it needs to keep it sustainable
and reduce the current profit margin accordingly. (Action: Embassy Port-au-Prince)

Recommendation 43: Embassy Port-au-Prince should establish a health unit access policy for
the mission. (Action: Embassy Port-au-Prince)

Recommendation 44: Embassy Port-au-Prince should perform a risk assessment of
management controls to identify weak areas and then prioritize corrective actions. (Action:
Embassy Port-au-Prince)

Recommendation 45: Embassy Port-au-Prince should organize and maintain the narcotics
affairs section budget database and grants and contracts documentation in compliance with
Federal Assistance Financial Management requirements and conduct grants and contract training
for narcotics affairs section staff. (Action: Embassy Port-au-Prince)




                                         56
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Port-au-Prince should prepare, in consultation with
entry-level professionals, a menu of career development opportunities for these professionals and
direct all embassy sections to give all entry-level officers and specialists the opportunity to
participate in a range of career development opportunities as often as possible consonant with
their job responsibilities.

Informal Recommendation 2: Embassy Port-au-Prince should establish a consolidated
contacts database.

Informal Recommendation 3: Embassy Port-au-Prince should increase reporting through
official channels on the content of meetings with senior and working-level Haitian officials.

Informal Recommendation 4: Embassy Port-au-Prince should issue a management notice
requiring each section to establish, maintain, and annually retire official records, including email
messages that qualify as records, and implement a tracking system to verify that employees are
managing and retiring electronic records.

Informal Recommendation 5: Embassy Port-au-Prince should archive files that meet the
definition of official U.S. records and should destroy nonofficial materials held in safes.

Informal Recommendation 6: Embassy Port-au-Prince should include biographic reporting
and leadership analysis responsibilities in the work requirements statements of all officers who
do significant amounts of contact work.

Informal Recommendation 7: Embassy Port-au-Prince should reestablish collaboration with
regional Open Source Center managers on analyses that would benefit embassy officers.

Informal Recommendation 8: Embassy Port-au-Prince should designate a secondary
coordinator for the Leahy vetting program and arrange for the incumbent’s training and
authorization to use the International Vetting and Security Tracking system.

Informal Recommendation 9: Embassy Port-au-Prince should assign an economic portfolio to
the incoming officer assigned to position 14-748960.

Informal Recommendation 10: Embassy Port-au-Prince should maintain its health sector files
in shared electronic folders accessible to the economic section and organized in accordance with
the Traffic Analysis by Geography and Subject labeling system, and include health files in
economic section archiving.



                                          57
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: Embassy Port-au-Prince should arrange for the Haiti health
reconstruction coordinator and economic officers to jointly prepare periodic cables on health
topics for broader dissemination to U.S. official consumers.

Informal Recommendation 12: Embassy Port-au-Prince should prepare a written strategic
analysis of the public diplomacy themes important to the Haitian-American dialogue and the key
Haitian audiences who should be engaged in that dialogue.

Informal Recommendation 13: Embassy Port-au-Prince should close access to the public of
the Information Resource Center except by appointment and concentrate its efforts on external
outreach.

Informal Recommendation 14: Embassy Port-au-Prince should reconfigure current staffing to
include a trained research librarian.

Informal Recommendation 15: Embassy Port-au-Prince should maximize programming
opportunities at the American Corner and work closely with the Fondasyon Konesans ak Libete
to leverage its platforms outside Port-au-Prince.

Informal Recommendation 16: Embassy Port-au-Prince should create and implement a written
orientation and training program for consular entry-level officers.

Informal Recommendation 17: (b) (5)



Informal Recommendation 18: Embassy Port-au-Prince should use the intranet to facilitate
internal communication in the consular section, including dissemination of standard operating
procedures.

Informal Recommendation 19: Embassy Port-au-Prince should implement a plan to use media
outlets, the embassy Web site, and signs to inform the public of the changes to the appointment
system.

Informal Recommendation 20: Embassy Port-au-Prince should use its Web page, signage, and
other public information outlets to inform the public which items are not permitted in the
consular waiting areas.

Informal Recommendation 21: Embassy Port-au-Prince should place appropriate signs to
direct the public through the consular entry and waiting areas.

Informal Recommendation 22: Embassy Port-au-Prince should use the automated queuing
system for managing the applicant flow in the immigrant visa unit.

Informal Recommendation 23: Embassy Port-au-Prince should procure the items needed for
the American citizens services emergency fly-away kit.

Informal Recommendation 24: Embassy Port-au-Prince should implement a plan to provide
adequate representational and travel funds for the consular section.

                                         58
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 25: Embassy Port-au-Prince should delineate responsibilities and
establish standard operating procedures for consular section and regional security office
cooperation in cases involving American citizens and law enforcement issues.

Informal Recommendation 26: Embassy Port-au-Prince should conduct regular briefing
sessions for consular officers on country-specific and worldwide fraud trends.

Informal Recommendation 27: Embassy Port-au-Prince should establish accurate work
requirements reflecting the portfolios of the locally employed staff in the fraud prevention unit.

Informal Recommendation 28: Embassy Port-au-Prince should conduct regular briefings for
consular staff on the assistant regional security officer-investigations function and program.

Informal Recommendation 29: Embassy Port-au-Prince should establish working groups as
part of the International Cooperative Administrative Support Services budget committee to
address the list of top priorities already drafted by the council.

Informal Recommendation 30: Embassy Port-au-Prince should designate a note taker for
International Cooperative Administrative Support Services council meetings and post the
minutes on the embassy’s intranet Web site.

Informal Recommendation 31: Embassy Port-au-Prince should revise and reissue the awards
policy to include specific guidance relating to rejected awards.

Informal Recommendation 32: Embassy Port-au-Prince should implement a plan to account
for official visitors and capture the associated costs in an accurate and timely manner, including
delegating to one element of the embassy the responsibility to maintain an authoritative list.

Informal Recommendation 33: Embassy Port-au-Prince should implement a plan to encourage
employees to pursue and maintain French or Haitian Creole language skills.

Informal Recommendation 34: Embassy Port-au-Prince should post information concerning
the Equal Employment Opportunity program on its intranet Web site.

Informal Recommendation 35: Embassy Port-au-Prince should display its Equal Employment
Opportunity information in more visible and public locations.

Informal Recommendation 36: Embassy Port-au-Prince should appoint several of its locally
employed staff members as Equal Employment Opportunity liaisons.

Informal Recommendation 37: Embassy Port-au-Prince should implement a procedure that
requires occupants to inventory property in their residences and return inventory documents to
the general services unit in a timely manner.

Informal Recommendation 38: Embassy Port-au-Prince should recruit, hire, and train a
receiving clerk.

Informal Recommendation 39: Embassy Port-au-Prince should require that contracting
officer’s representatives complete training as required by regulation.

                                          59
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 40: Embassy Port-au-Prince should conduct Safety, Health and
Environmental Management committee meetings as required by Department of State regulations.

Informal Recommendation 41: Embassy Port-au-Prince should establish regular meetings in
the information service center to facilitate open communication and build team relationships.

Informal Recommendation 42: Embassy Port-au-Prince should provide training to the
information services center staff on protecting personally identifiable information.

Informal Recommendation 43: (b) (5)


Informal Recommendation 44: Embassy Port-au-Prince should implement a standard
operating procedure for managing network user accounts.

Informal Recommendation 45: (b) (5)



Informal Recommendation 46: (b) (5)


Informal Recommendation 47: (b) (5)



Informal Recommendation 48: (b) (5)


Informal Recommendation 49: (b) (5)


Informal Recommendation 50: (b) (5)


Informal Recommendation 51: (b) (5)




Informal Recommendation 52: Embassy Port-au-Prince should complete the January-June
2011 semiannual financial statements for its American employee association and forward them
to the Department of State, and should also complete the July-December 2011 statement.

Informal Recommendation 53: Embassy Port-au-Prince should place relevant information
concerning its employee association on the embassy’s intranet Web site.

Informal Recommendation 54: Embassy Port-au-Prince should amend its school
transportation policy to clarify that it will provide transportation to and from school for all
students whose tuition and fees are authorized to be paid by the U.S. Government.
                                           60
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Principal Officials

                                                              Name      Arrival Date
Ambassador                                         Kenneth H.Merten            08/09
Deputy Chief of Mission                              Daniel L. Foote           06/11
Chiefs of Sections:
  Management                                          George Indyke           08/11
  Consular                                       Colombia Barrosse            09/10
  Political                                         Peter Kujawinski          08/10
  Economic                                         John G. Robinson           08/11
  Narcotics Affairs                                  Carl Siebentritt         09/11
  President’s Pepfar                                          Vacant
  Public Affairs                            John Piechowski (acting)          06/10
  Regional Security                                   Jeffrey Roberts         08/11
Other Agencies:
  Animal Plant Health
  Inspection Service
  (Department of Agriculture)                                  Vacant
  Centers for Disease Control           John Vertefeuille, Ph.D., MHS         02/11
  Department of Defense                      John Reed, CDR, USCG             07/11
  Department of Treasury                          Elizabeth H. Morris         05/11
  Drug Enforcement
  Administration                                       Gary Coffman           11/10
  U.S. Agency for International
    Development                                         Carleene Dei          01/10
  U.S. Citizenship and
  Immigration Services
  (Department of Homeland
  Security)                                              Hichem Kefi          11/11
Resident in Santo Domingo:
   Commercial Attaché                                   Robert Jones
   Agricultural Attaché                              Margaret Bauer
   Legal Attaché                                    Lazaro E. Andino
   Immigration and Customs
   Enforcement (Department of
   Homeland Security)                             Donald Bruckschen
Resident in Nassau:
   Transportation Security
   Administration (Department
   of Homeland Security                              Lawrence Mizell




                                       61
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

ARSO-I          Assistant regional security officer- investigations

DCM             Deputy chief of mission

Department      Department of State

EEO             Equal Employment Opportunity

ELO             Entry-level officer

ELP             Entry-level professional

FAH             Foreign Affairs Handbook

FAM             Foreign Affairs Manual

FOKAL           Fondasyon konsesans ak libete

ICASS           International Cooperative Administrative Support Services

IM              Information management

INL             Bureau of International Narcotics and Law Enforcement Affairs

ISSO            Information systems security officer

IT              Information technology

LE              Locally employed

NSDD-38         National Security Decision Directive 38

PEPFAR          President's Emergency Plan for AIDS Relief

USAID           United States Agency for International Development




                            62
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




    SENSITIVE BUT UNCLASSIFIED
